<html>
<title> - NOMINATION OF ROBERT A. McDONALD TO BE SECRETARY, U.S. DEPARTMENT OF VETERANS AFFAIRS</title>
<body><pre>[Senate Hearing 113-766]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-766

                  NOMINATIONS OF THE 113TH CONGRESS, 
                             SECOND SESSION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                      JULY 22 AND DECEMBER 4, 2014

                               __________

       Printed for the use of the Committee on Veterans' Affairs





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available via the World Wide Web: http://www.fdsys.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

91-804 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
         
                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie K. Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              

                             July 22, 2014
                             
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......     1
Burr, Hon. Richard, Ranking Member, U.S. Senator from North 
  Carolina.......................................................     3
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     5
Murray, Hon. Patty, Chairman, U.S. Senator from Washington.......     7
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     8
Tester, Hon. Jon, U.S. Senator from Montana......................     9
Johanns, Hon. Mike, U.S. Senator from Nebraska...................    10
Hirono, Hon. Mazie K., U.S. Senator from Hawaii..................    11
Heller, Hon. Dean, U.S. Senator from Nevada......................    11
Rockefeller, Hon. John D., IV, U.S. Senator from West Virginia...    13
Moran, Hon. Jerry, U.S. Senator from Kansas......................    14
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........    15
Boozman, Hon. John, U.S. Senator from Arkansas...................    16
Begich, Hon. Mark, U.S. Senator from Alaska......................    17

                               WITNESSES

Portman, Hon. Rob, U.S. Senator from Ohio........................     6
McDonald, Robert A., nominee to be Secretary, U.S. Department of 
  Veterans Affairs...............................................    19
    Prepared statement...........................................    22
    Response to prehearing questions submitted by Hon. Bernard 
      Sanders....................................................    24
    Questionnaire for Presidential nominees......................    29
    Letters from the Office of Government Ethics.................    43
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................    44

                                APPENDIX

Bless, Dennis C., CRNA, MS, President, American Association of 
  Nurse Anesthetists (AANA); prepared statement..................    71
Henkel, Robert J., FACHE, President and Chief Executive Officer, 
  Ascension Health; letter.......................................    72
National nursing organizations; letter...........................    73
                              ----------                              

                            December 4, 2014
         Nomination of Leigh A. Bradley to be General Counsel, 
                  U.S. Department of Veterans Affairs
                                SENATORS

Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......    75
Isakson, Hon. Johnny, U.S. Senator from Georgia..................   103

                               WITNESSES

Bradley, Leigh A., nominee to be General Counsel, U.S. Department 
  of Veterans Affairs............................................    75
    Prepared statement...........................................    77
    Response to prehearing questions submitted by Hon. Bernard 
      Sanders....................................................    78
    Response to posthearing questions from:
        Hon. Richard Blumenthal..................................    83
        Hon. Johnny Isakson......................................    84
        Hon. Dean Heller.........................................    87
    Questionnaire for Presidential nominees......................    89
    Letter from the Office of Government Ethics..................   101
    Letter from the nominee to the Office of General Counsel, 
      U.S. Department of Veterans Affairs........................   102

                                APPENDIX

Heller, Hon. Dean, U.S. Senator from Nevada; prepared statement..   105
 
 NOMINATION OF ROBERT A. McDONALD TO BE SECRETARY, U.S. DEPARTMENT OF 
                            VETERANS AFFAIRS

                              ----------                              


                         TUESDAY, JULY 22, 2014

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:12 p.m., in 
room G-50, Dirksen Senate Office Building, Hon. Bernard 
Sanders, Chairman of the Committee, presiding.
    Present: Senators Sanders, Rockefeller, Murray, Brown, 
Tester, Begich, Blumenthal, Hirono, Burr, Isakson, Johanns, 
Moran, Boozman, and Heller.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. I want to welcome everyone here for a 
very important hearing. We are going to be considering the 
nomination of Robert McDonald to be Secretary of the Department 
of Veterans Affairs.
    We are pleased to welcome Mr. McDonald, and his wife, 
Diane, as well. Thank you very much. Mrs. Portman is here, as 
well, and we thank her for being here.
    We are going to be learning more about Mr. McDonald's many 
qualifications during his introduction and throughout the 
course of this hearing, so I will not spend time repeating what 
we are going to be discussing very shortly.
    What I do want to say is that I thank Mr. McDonald for 
accepting the President's nomination; when he and I chatted, he 
said something to me that I thought was extremely important and 
revelatory. I asked him why he wanted to come into this job in 
this very, very difficult moment with so much partisanship here 
in the Congress and problems within the VA, and his response 
was, ``The President, our Commander in Chief, asked me to 
serve. I want to do well by my country and I accepted that 
challenge.'' I thank him very much for that.
    All of us know that the Department of Veterans Affairs runs 
the largest integrated health care system in the United States 
of America. Just today--today, you can see the scope of it--
over 200,000 veterans are walking into the doors of VA to get 
health care, just health care. The truth is that the vast 
majority of those veterans feel good about the health care that 
they are getting and feel good about the staff they are 
interacting with. But, we all understand that there are 
problems in health care. There are problems in the claims 
backlog. There are other problems. Mr. McDonald's job will be 
to, in a very significant way, in a bold way, start addressing 
those problems.
    I do not want to get Mr. McDonald too nervous by mentioning 
some of these problems. He may pick up and walk out of here. 
But, he does know that some 640,000 veterans have an 
appointment that is more than 30 days from the date that the 
appointment was originally requested or from the date that was 
desired by the patient, and clearly, one of the challenges, Mr. 
McDonald, that you face is to make sure that all of our 
veterans get high-quality care in a timely manner. Not so easy, 
but that is one of your challenges.
    Furthermore, in terms of the challenges that you face, it 
is not only providing quality, timely care, but many of these 
veterans are coming into the VA with very, very difficult 
problems. I am in--I am going to get this book for my 
colleagues up here--reading a book by a fellow named Dave 
Finkel who writes for the Washington Post. It is called, 
``Thank You For Your Service.'' I do not know if any of you 
have read it. What he talks about--he was with the troops in 
Iraq and then he followed them after they came home. This book 
is about PTSD and it is about TBI and it is a hard read. It is 
a very painful read, to see what not only the soldiers are 
going through, but what their wives and their kids are going 
through.
    Now, how do we deal with the reality that some 500,000 
people who served in Iraq and Afghanistan came home with TBI 
and PTSD? The truth is, if you had unlimited amounts of money, 
that would be a very difficult challenge. How do we deal with 
that? It is unprecedented.
    Furthermore, it is my strong opinion that if VA is going to 
do quality health care that it needs to do, we are going to 
need--simply need more doctors, more nurses, more medical 
personnel, more productivity in the VA. At a time when we have 
a shortage, a national shortage of primary care doctors, 
psychiatrists, and many other health professionals, how do we 
bring those people into our system?
    So, health care, to my mind, is certainly a major issue, 
but that is not the only challenge that our new Secretary will 
face. We have the Veterans Benefits Administration, which is 
now in the midst of one of the largest transformations in 
modern history, which is going from a paper system to a 
paperless system. In my view, they have done a good job at 
that, but problems remain. We want to make sure that in that 
transformation, as we bring down the wait times for benefits--
for claims, that we do it in an accurate way. That is not so 
easy and that is a challenge that you are going to have to 
face.
    One of the scandals, I think, in the modern history of this 
country, certainly since Vietnam, has been the number of 
homeless veterans that we have seen all over the country. Once 
again, in recent years--which General Shinseki played a good 
role in this--the percentage of veterans who are homeless has 
gone down. How do we keep that effort going? No person who put 
their lives on the line to defend this country should be 
homeless. We are making progress, but that is another challenge 
that you are going to face.
    Let me close by suggesting that I think Mr. McDonald brings 
to us two very important qualities. Number 1, he is familiar 
with the military because he has served in the military for 
many years. He brings with that service a passion to take care 
of our veterans, which is obviously an essential quality that 
we want from our Secretary.
    Number 2, the other quality that he brings is he has been 
the CEO of a major American corporation, which has many, many 
employees, maybe not quite as many as the VA, but many, many 
employees. There is no question--no question--that we need good 
quality management, we need transparency, we need 
accountability. So, I hope Mr. McDonald's corporate experience 
will give him the tools that he needs to create a well run and 
accountable VA.
    With that, I would like to turn the microphone over to my 
colleague, the Ranking Member, Richard Burr, for his opening 
remarks, and then we will proceed with the introduction of the 
nominee.
    Senator Burr.

        STATEMENT OF HON. RICHARD BURR, RANKING MEMBER, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Burr. Well, thank you, Mr. Chairman, and thank you 
for calling this hearing. I might say that we chuckled a little 
bit over here when we looked at the table and thought maybe we 
could afford a little bigger table for these three individuals. 
I think, Bob, it says a lot to have two members of the U.S. 
Senate on both sides of the aisle here to introduce you.
    Bob, welcome. I share the Chairman's comments. It is tough 
for anybody to envision why somebody would take this job. I am 
glad to know that we have got people that think enough about 
the future of this country and the next generation and the 
following generation, and more importantly, the promises that 
we made to so many Americans that we would be there to take 
care of them when they made the sacrifices that they did.
    As you acknowledged in your testimony, the VA is an agency 
in crisis. Over the past few months, the Nation has been rocked 
by revelations that the Veterans Health Administration was 
manipulating wait time data, leaving tens of thousands of 
veterans waiting for the care they needed and deserved. In the 
wake of this scandal, it has become clear that VA officials 
failed for years to act on warnings of a national scheduling 
crisis. The President's own team found that this was fueled by 
a corrosive culture in which officials tended to minimize 
problems or refused to acknowledge problems altogether.
    Although VA has started taking steps to improve access to 
care, much more work is needed to understand and resolve the 
full scope of the issues facing VA health care. The ongoing 
internal evaluation by the VA and investigations by other 
offices will be critical in understanding that effort.
    As the head of VA, Mr. McDonald, it will be essential that 
you embrace the findings of these investigations and urgently 
work to bring about the needed reform.
    Perhaps more importantly, you must usher in a new culture 
throughout VA. Employees at all levels must be willing to 
proactively identify and address problems in every corner of 
this vast Department. We need a culture where warning signs 
will not be ignored and twisting performance metrics to make it 
appear that veterans are being well served will not be 
tolerated.
    This paradigm shift is needed not only on the health care 
side of VA, but on the benefits side, as well. In recent weeks, 
the Inspector General and the Government Accountability Office 
have shed light on a number of troubling issues at the Veterans 
Benefits Administration which suggest that VBA is not upholding 
its responsibility to veterans or to taxpayers. Work that is 
not counted in the disability claims backlog is piling up. 
Hundreds of millions in taxpayer dollars have been improperly 
paid out. There are serious questions about the integrity of 
VA's data on the backlogs and the quality of its decisions. 
But, in response, VA continues to tout its suspect data as 
proof that VBA is working well.
    My hope and my expectation, Mr. McDonald, is that you will 
not allow VA to ignore the signs of deep dysfunction at VBA, 
but will work to resolve any systemic problems immediately.
    More broadly, your charge moving forward will be to ensure 
that this entire Department, from top to bottom, is refocused 
on providing our Nation's veterans with the high-quality 
service that they have earned and that they deserve. I look 
forward to working with you to help VA live up to the 
expectations of veterans and a nation grateful for their 
service.
    I thank the Chair. I yield the floor.
    [The prepared statement of Senator Burr follows:]
        Opening Statement of Hon. Richard Burr, Ranking Member, 
                    U.S. Senator from North Carolina
    Good afternoon, Mr. Chairman. Thank you for bringing the Committee 
together to examine the qualifications of Robert McDonald to serve as 
the next Secretary of Veterans Affairs. Welcome to you, Mr. McDonald, 
and thank you for your willingness to take the reins at the Department 
of Veterans Affairs at this critical time.
    As you acknowledge in your testimony, VA is an agency in crisis. 
Over the past few months, the Nation has been rocked by revelations 
that the Veterans Health Administration was manipulating its wait-time 
data, leaving tens of thousands of veterans waiting for the care they 
need and deserve. In the wake of this scandal, it has become clear that 
VA officials failed for years to act on warnings of a national 
scheduling crisis. The President's own team found that this was fueled 
by a corrosive culture, in which officials tended to ``minimize 
problems or refuse to acknowledge problems all together.''
    Although VA has started taking steps to improve access to care, 
much more work is needed to understand and resolve the full scope of 
issues facing VA health care. The on-going internal evaluation by VA 
and investigations by other offices will be critical in that effort. As 
the head of VA, Mr. McDonald, it will be essential that you embrace the 
findings of these investigations and urgently work to bring about 
needed reforms.
    Perhaps more importantly, you must usher in a new culture 
throughout VA. Employees at all levels must be willing to proactively 
identify and address problems in every corner of this vast Department. 
We need a culture where warning signs will not be ignored and twisting 
performance metrics to make it appear that veterans are being well 
served will not be tolerated. This paradigm shift is needed not only on 
the health care side of VA, but on the benefits side as well.
    In recent weeks, the Inspector General and Government 
Accountability Office have shed light on a number of troubling issues 
at the Veterans Benefits Administration, which suggest that VBA is not 
upholding its responsibilities to veterans or to taxpayers. Work that 
is not counted in the disability claims backlog is piling up; hundreds 
of millions in taxpayer dollars have been improperly paid out; and 
there are serious questions about the integrity of VA's data on the 
backlog and the quality of its decisions. But, in response, VA 
continues to tout its suspect data as ``proof'' that VBA is working 
well.
    My hope and expectation, Mr. McDonald, is that you will not allow 
VA to ignore the signs of deep dysfunction at VBA, but will work to 
resolve any systemic problems. More broadly, your charge moving forward 
will be to ensure that this entire Department--from top to bottom--is 
re-focused on providing our Nation's veterans with the high-quality 
service they have earned and they deserve. I look forward to working 
with you to help VA live up to the expectations of veterans and of a 
nation grateful for their service.
    I thank the Chair and yield back.

    Chairman Sanders. Thank you, Senator Burr.
    Senator Sherrod Brown is the senior senator from Ohio, the 
State where Mr. McDonald hails from, and he and Senator Portman 
are going to introduce Mr. McDonald.

HON. SHERROD BROWN, U.S. SENATOR FROM OHIO, INTRODUCING ROBERT 
   A. McDONALD, NOMINEE TO BE SECRETARY, U.S. DEPARTMENT OF 
                        VETERANS AFFAIRS

    Senator Brown. Thank you, Mr. Chairman. It is an honor to 
be here with my friend, Rob Portman, to introduce Bob McDonald 
to be the new Secretary of the Veterans Administration. I am 
honored to do that.
    I think it is appropriate to have a long-time Ohioan as 
Secretary of the VA. One of the first Veterans Hospitals in the 
country was in Dayton, OH, and we have a long tradition, as the 
States that you all represent have, of caring for veterans.
    We understand there are six-and-one-half million veterans 
in this last year, and I assume roughly the same number this 
year, in the Veterans Health Care System that have gotten care, 
some 85 million patient visits. The responsibility that I hope 
soon-to-be Secretary McDonald will assume is great.
    We know he is qualified, as the Chairman said, when the 
President of the United States asked Mr. McDonald to be the 
Secretary of the VA. We know his qualifications as a graduate 
of West Point, as a U.S. Army Captain, and as the CEO of one of 
the most successful large corporations in this country, with 
thousands and thousands of employees and millions of customers 
all over the world. So, we know he is qualified to do this.
    We also know the problems we have seen in the VA. A decade 
or so ago when we went to war, the government did not really 
envision the number or the severity of injuries that would come 
out of the Afghan and Iraq wars. I think we probably also 
undercounted the number of men and women exposed to Agent 
Orange that would be, under presumptive eligibility, coming 
into the VA system with illnesses that were serious and took a 
high level of care. That is the importance of the VA.
    We know that those who are in the VA system get good care. 
It is access to the system that both Senator Burr and Chairman 
Sanders underscored that is so very, very important.
    The three issues that I know when Mr. McDonald came to my 
office--we have had two face-to-face lengthy conversations and 
one over the phone since he was selected for this job. He 
understands reexamining the VA employee evaluations, how 
important that is, restoring accountability among the VA's 
senior managers, and ensuring that the focus of the entire 
Department always be on the veterans.
    That is why the importance of caring for those who have 
waited for more than 30 days for a VA appointment, why both the 
Chairman and Senator Burr have led the discussion in the 
Conference Committee in making sure that happens, making sure 
that those who were responsible for many of the problems that 
Senator Burr pointed out, that they be held accountable, and 
that we scale up VA capacity--doctors, nurses, physical 
therapists, beds, and more, both at CBOCs and at Veterans 
Hospitals in our States.
    There is no doubt in my mind that Bob McDonald understands 
the gravity of this mission. There is no doubt in my mind that 
he is qualified to do it. There is no doubt in my mind that he 
has the heart, the work ethic, and the empathy. He has an 
uncommon empathy among people that come to this city, I think, 
and that is why I support him 100 percent.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you.
    Senator Portman is the junior Senator from Ohio. Senator 
Portman.

HON. ROB PORTMAN, U.S. SENATOR FROM OHIO, INTRODUCING ROBERT A. 
McDONALD, NOMINEE TO BE SECRETARY, U.S. DEPARTMENT OF VETERANS 
                            AFFAIRS

    Senator Portman. Thank you, Mr. Chairman. I appreciate 
Chairman Sanders, Ranking Member Burr, and others for letting 
us come today to introduce our fellow Ohioan, and it is a 
pleasure to be here with my colleague from Ohio, Sherrod Brown.
    I think Sherrod has said it well. This is a distinguished 
patriot who is willing to step forward for his country, and I 
hope we could consider his nomination, that the right questions 
are asked, and that we are sure we can get him there as soon as 
possible to provide some direction to an agency that needs it 
badly.
    Bob is a friend. Diane and Bob are friends of Jane's and 
mine. I am delighted that both Jane and I can be here today at 
their side.
    It is a tough job, as I told Bob when he asked me about it. 
We have had town hall meetings all across the State of Ohio the 
last several weeks. No one in the Senate knows more about this 
than the Members of this Committee; there are a lot of concerns 
right now. Some, as the Chairman has said, have to do with the 
health care side. Others have to do with disability and the 
long wait lists on both sides. We have got an opportunity in 
this leader to be able to help turn this around.
    He does understand the problem. He has been in the 
military. We talked about his record as an Army Ranger and West 
Point graduate. He understands how critical the need is. At 
this point, having talked to him, he also believes that his 
experience, having been involved in managing and helping to 
reform a huge, complex organization, will come in handy. He 
also understands the health care industry. You know, Procter & 
Gamble is very big in health care, and I think that is 
important at this point.
    One thing I will say is that I think one thing that Bob 
McDonald did at Procter which was impressive is push 
accountability down to every level, which he can talk more 
about specifically. He started off as a brand assist and went 
all the way up to become Chief Executive. He also launched an 
effort to be sure that everyone at every level feels that 
accountability that the CEO must feel to be able to provide, in 
that case, a good product for consumers, and I think that is 
really critical right now with the accountability issues we see 
at the VA.
    He has also been on a lot of other corporate boards. You 
have got that in his background.
    He has also been involved in some government issues. When I 
was at the U.S. Trade Representative's Office, he would come in 
and talk to me about trade. He has been on President Obama's 
and President Bush's Advisory Committee for Trade Policy and 
Negotiation, so he is a guy that has had some interaction with 
government at some high levels.
    When it comes to running a big organization, again, he is a 
world-class business person, and I think his experience in the 
military is equally important.
    The bottom line, I think, as you said, Chairman Sanders, 
for Bob McDonald--and for Diane--this is not about a job. This 
is about a mission, and he has answered the call before to 
serve his country. He is prepared to make the sacrifices to do 
that again and to focus like a laser on these problems in a 
nonpartisan way to create the kind of service that our veterans 
so richly deserve.
    I hope that you will see fit to send his nomination to the 
floor with a strong vote and we can commence his leadership at 
a VA that needs it badly.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Portman.
    We will proceed with opening remarks based on how early 
people came. We will start with Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Mr. Chairman, thank you so much for holding 
this hearing.
    You know, it was just last week that we heard about the 
current state of VA health care and the Department's efforts to 
address the many challenges before it, so I wanted to start by 
taking a moment to thank Acting Secretary Gibson, who stepped 
up during this crisis and took immediate action to help 
increase transparency around the wait times and planned an 
external audit of VHA's scheduling practices and began the 
procurement of a modern scheduling system.
    As Acting Secretary, he identified, as we heard, about 
$17.6 billion in critical funding needs to help increase 
veterans' access to care, including 10,000 more medical 
providers and support staff, improved IT systems, and 
additional clinic space for patients to receive care. The 
actions that he laid out before this Committee are very 
important, but they are first steps; and even with some of the 
policy changes and additional funding, it is going to take some 
time to see improvement. Veterans are going to still be waiting 
for health care too long.
    As we know, the Department's ability to carry out its 
mission is going to remain hampered as long as there are a 
number of key leadership vacancies that are unfilled.
    Even as we work to bring down these wait times and improve 
accountability, there are many other serious challenges before 
the VA that have to be addressed. We have 22 veterans still 
taking their own lives each day. Thousands of veterans are 
alone, coping with sexual assault. While the Department has 
made some commendable progress, it will be an uphill battle as 
we work to eliminate veterans' homelessness and the claims 
backlog.
    The next Secretary is going to have to grapple with all of 
these and a lot more; so, Mr. McDonald, thank you for accepting 
the call to serve your fellow veterans. I think you know that 
you are faced with a monumental task. If confirmed, you will be 
responsible for the Department's $163 billion budget, 310,000 
employees, and, most importantly, the care of over nine million 
veterans.
    The next Secretary has to rebuild a VA that can meet the 
veterans' needs today and still plan for the needs of millions 
of veterans in the decades to come, and in doing so, the 
Secretary has to overcome and transform a corrosive culture 
unworthy of the Department's dedicated and talented medical 
providers who only want to help our veterans.
    The next Secretary has to reform the poor management and 
communications structures that currently exist, actually, at 
all levels of VHA.
    Mr. McDonald, when we met in my office several weeks ago, 
you told me you were one of the veterans that was lost in the 
system during your transition from civilian to military life. 
So, I trust that you understand what a critical moment this is 
for the VA and why we have to fix many of these systemic and 
cultural challenges.
    So, I look forward to hearing your plans for addressing 
these and all the problems that are before us today and how you 
are going to finally strengthen the VA for generations to come. 
We all know that our men and women in uniform have earned a VA 
that provides high-quality benefits and services when and where 
they need them.
    So, thank you very much for answering the call. Mr. 
Chairman, thank you for having this hearing and moving this 
nomination forward.
    Chairman Sanders. Thank you, Senator Murray.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Mr. McDonald, thank you very much for 
being willing to accept this challenge. I think you are the 
right man for the job and I think you will do a great job.
    Your primary job as CEO of Procter & Gamble was 
accountability and bringing a return to your shareholders, and 
your shareholders bought their stock with their own money. Your 
job at the VA, you also have shareholders, and that is the 
veterans of the United States of America, who bought their 
stock by risking their life for the safety and security of this 
country. There is no greater calling for us in Congress or for 
you as the next Secretary but to bring that value back to those 
veterans.
    The Veterans Administration has many great people in it, 
but unfortunately, we have uncovered a culture that is not 
conducive to the best interest of our veterans, and in some 
cases--and I underline the word ``some''--has caused many 
veterans to have health care problems they should not have had 
because of an inattentive system and because of people who were 
more motivated to make their number of appointments look good 
on paper than the results of veterans looking good in their 
lives.
    So, I appreciate the fact that you are willing to accept 
this challenge. I cannot wait to ask questions, because I have 
three or four that you and I have already discussed that I want 
to revisit. So, thank you for being willing to accept this 
responsibility. I hope you will bring up the value to the 
shareholders of the VA, our veterans, like you brought to the 
shareholders of Procter & Gamble.
    Chairman Sanders. Thank you, Senator Isakson.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Senator Sanders, Ranking Member 
Burr; and I want to thank you, Bob, for being willing to put 
yourself through this process and being willing to serve as VA 
Secretary.
    Montanans enlist in high numbers. We have got second per 
capita number of veterans in this country, only surpassed by my 
friend to the left here from Alaska.
    This is a personal issue for me. Our veterans mean a lot. 
When I came in 2007 to this body, I had the chance to work with 
Secretary Peake and then Secretary Shinseki, and we got good 
things done for veterans under both those administrations. I 
look forward to doing good things under your administration, 
whether it is in tele-medicine, whether it is in mental health, 
whether it is in making sure we have got the needed doctors and 
nurses. We need to support the problems of the veterans that 
are coming back. It is critically important.
    During our meeting in my office, I appreciated your focus 
on the VA's capacity to better serve veterans. I think that you 
are in a unique situation. There are some that want to 
privatize the VA. They want to take it down a road of 
privatization. I am not one of them. There are others who want 
to build the VA and want to make it better. They want to make 
it better for our veterans and make it more accountable. I am 
in that camp.
    So, I appreciate your willingness to serve. You have got a 
full plate, once you get confirmed. I think you have got the 
tools that we need to fix what is wrong with the VA and improve 
upon what is right.
    With that, I want to just thank you once again. Our 
veterans deserve our best and I think you will be able to 
deliver that.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Tester.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman and Ranking Member Burr, 
thank you for convening the hearing today.
    Mr. McDonald, I thank you and your wife for being here. It 
is good to see both of you.
    I appreciate the opportunity that we had this morning to 
sit down and talk about some of the issues you will be facing. 
In the midst of this crisis, it is imperative that we swiftly 
move to fill this vacancy, the top position in the 
organization.
    When Secretary Shinseki resigned, I noted that his 
resignation could not be an end to the crisis. So often, that 
is the Washington way. We make a change somewhere in the 
organization, if not at the top, sweep the mess under the rug, 
move on, deal with other issues, and eventually it is all 
forgotten, but the problems are not solved.
    What the VA really needs is a transformative leader that 
can bring about true and lasting change. As we have seen in 
report after report, a culture of complacency, if not 
corruption, has spread throughout the VA. It is going to be a 
monumental task that you have ahead of you. It is not an easy 
task for you, made especially difficult when the VA has been 
racked by scandal after scandal, and there could be more.
    So, today, we consider your nomination with that as the 
backdrop. Unlike previous VA Secretaries, you bring with you 
management leadership experience from the private sector. 
Perhaps that is just exactly what the VA needs, someone who has 
experience in reorganizing, reallocating resources to make an 
organization as efficient and as effective as possible.
    In past years, this Congress and this Committee has made VA 
a priority. We have provided budget and personnel increases in 
an effort to ensure quality of care. We were promised that that 
was occurring. But, as we have seen, the VA has failed our 
veterans, even with the increases in funding.
    Just last week at our Committee hearing, Acting Secretary 
Gibson said the VA could solve its problems with another $17.6 
billion. I cannot believe that just throwing more money at the 
VA is the answer. In fact, we know it is not the only answer, 
because since 2000, the VA's budget has about tripled--tripled. 
However, we continue to uncover new problems.
    In my judgment, the VA needs what you have experienced in 
your lifetime. If you did not provide good service and 
products, your competitors took your business away from you. I 
personally believe that the VA needs competition. Only then 
will the VA see that it needs to get its act together, and only 
then will we start to see the VA get back to its core mission 
of serving veterans.
    Without serious changes at the VA, the reports of 
mismanagement, fraud, whistleblower retaliation, and more will 
continue. Your job will be to root this out and do everything 
you can to turn the VA in a different direction.
    I look forward to hearing from you. I think your 
confirmation is assured. I do believe you are the right person 
for the job and I wish you the very best. Our veterans depend 
upon you.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Johanns.
    Senator Hirono.

              STATEMENT OF HON. MAZIE K. HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman and Ranking Member 
Burr, for this hearing, and aloha, Mr. McDonald. It was a 
pleasure to meet with you yesterday.
    You come to this position, which I expect that you will be 
confirmed, with heightened scrutiny because the issues 
confronting the Veterans Administration, of course, do not go 
away with the change in leadership at the top. We all knew 
that.
    I want to publicly thank Secretary Shinseki for doing that 
which he believed would be in the best interest of the Veterans 
Administration. I commend him and thank him for his decades of 
service.
    And, here you come with your sense of commitment, with your 
background in the private sector, and a desire--what I heard 
from you yesterday was a desire to really listen to the 
veterans, to hear what their concerns are and to respond to 
them. So, I call this pretty much a, not a top-down, but a 
bottom-up kind of leadership style that I think will stand you 
in good stead.
    While the number 1 issue, based on all of the information 
that has come out over the last several months, is, of course, 
making sure that the veterans get their health care needs met, 
but at the same time, we know through other hearings of this 
Committee that there are other ongoing concerns with the VA. 
Some of them were articulated by my colleagues, including 
homelessness, over-prescribing of drugs that may make them 
dependent, certain kinds of drugs, issues of educational 
opportunities, jobs, training, all of that.
    So, you will have a full plate, and I expect that this 
Committee will work with you in a very open and transparent 
way, in a frank way, so that we can work together to move the 
ball and get the veterans the kind of attention that they very 
much earned.
    Yes, I understand that there are capacity issues at the 
Veterans Administration, so I am not going to sit here and say 
that you do not need more money to hire more caregivers and 
other necessary personnel to take care of our veterans. At the 
same time, you assured me in our meeting that you would review 
the actions of your employees and take appropriate action, as 
necessary, to discipline and hold them accountable.
    Thank you very much, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Hirono.
    Senator Heller.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Chairman Sanders, thank you and Ranking 
Member Burr for quickly scheduling this hearing for this 
nominee; welcome, Mr. McDonald, and to your wife, also, 
welcome. I look forward--thank you, by the way, for the 
discussion we had in my office.
    In a short number of months, Congress, veterans, and the 
American public have had a glimpse into the failure of the VA 
to provide quality care to veterans across this Nation. It is 
disturbing, to say the least, that many of our veterans went 
without health care because employees decided to cheat the 
system.
    Every time I am home, I repeatedly hear from Nevadans about 
their individual stories and difficulties they have faced with 
the VA, and many of them are doubtful that it will ever 
improve.
    For example, at the Las Vegas VA Hospital, more than 6,100 
veterans were forced to wait more than 30 days to get an 
appointment. Just last year, a blind female veteran waited more 
than 6 hours in the VA emergency room before seeing a nurse or 
a doctor. In a small town outside of Las Vegas called Pahrump, 
6,000 veterans have waited more than 2 years for a clinic to be 
built. The VA officials have not provided a timeline for final 
approval of this facility.
    These problems with access to care extend beyond the VA 
health care. Veterans are also facing difficulty, as many of my 
colleagues have mentioned, receiving their benefits due to the 
disability claims backlog at the Veterans Benefits 
Administration.
    Mr. McDonald, I bring this issue up and will continue to do 
so because of the claims backlog impact veterans in my State 
face, which is worse than any other. Nevada veterans still have 
the longest wait in the Nation, at 338 days, on average, to 
complete claims. The Reno VA Regional Office remains the worst 
performing VARO in the country. A few months ago, a veteran 
from Fallon wrote to me saying, ``After 7 months of no 
retroactive payment, I returned to the VARO again. I spoke with 
the same advisor and he told me because I was retired from the 
Navy and in receipt of retirement benefits, I was considered a 
low priority.'' Now, I do not think, Mr. McDonald--and I 
believe you would agree with me--that any veteran should ever 
be told by the VA that they are a low priority.
    That is why I have been working hard with Senator Casey to 
continually urge Chairman Sanders to have a hearing on our 
comprehensive bipartisan legislation, the 21st Century Veterans 
Benefits Delivery Act. In the conversation that we had in our 
office, you told me you had an opportunity to take a look at 
this, and for that, I thank you for taking your time.
    These issues--the claims backlog, long appointment wait 
times, lack of access to quality health care, rural clinics--
are just a few of the concerns in Nevada, and I expect the new 
VA Secretary--you, Mr. McDonald--to tackle these issues head on 
and work with this Committee to address them.
    Furthermore, this agency needs more than a few initiatives. 
It needs substantial reform from within the VA in hopes to 
restore veterans' confidence and trust in their system. This 
crisis, arguably one of the worst in VA history, is the result 
of a corrosive culture due to management and some employees who 
believe that they are above reproach.
    To change the VA in the long term, its new leadership must 
be unrelenting and capable of transforming the agency to meet 
what would be its core mission, serving our Nation's veterans 
honorably and honestly. I expect the new VA Secretary to 
restore accountability and integrity to this organization, to 
ensure leadership and management teams will undoubtedly uphold 
these values and, ultimately, the promise made to our Nation's 
veterans. And, as a Member of this Committee with jurisdiction 
over the VA, I want absolute assurance that the new Secretary 
will be committed to transparency and accountability as the 
Committee conducts vigorous oversight moving forward.
    So, I commend you, Mr. McDonald, for your willingness to 
take this particular position, but it is also a challenging 
task. I also need to be fully confident that you are prepared 
to transform the VA and address the needs of Nevada veterans. 
So, I look forward to hearing your testimony and discussing 
these issues further.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Heller.
    Senator Rockefeller.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    Mr. McDonald, I am for you, and I was within about 5 
minutes of your coming into my office for some very specific 
reasons. You have been a veteran. You have understood that. You 
put yourself in harm's way. You talked to me about, should you 
be confirmed, which I feel certain that you will, that you plan 
to get into some of those waiting lines, no staff, just you, so 
that--and maybe the veterans will notice you and maybe they 
will not. But, the point is, you will have done it. The word 
will get around.
    There are all kinds of leadership, and a lot of it works on 
small symbols, where you do things that others have not done 
and, therefore, you are judged to be different, that you hold 
yourself to a higher standard and you are willing to be the 
difference.
    The other is that you have, more than anybody I can think 
of, this extraordinary combination of having served in very 
dangerous ways at a very high level--I do not know your rank, I 
am sorry, sir, but if you are in the 82nd Airborne, you are at 
high risk. You have run a great company, and when you run a 
great company and you have hundreds of thousands of people 
working for you, you cannot afford to make mistakes.
    Here, we give you oversight. There, in corporate America, 
you get your oversight every day from the Dow Jones, the S&P, 
from your shareholders. You get it every single day. So, you do 
not have time or room for mistakes, and yet you have to keep 
the larger interests of the corporation at heart, which you do, 
which is one of the reason why I think it was considered one of 
the best-run corporations in the world, or something like that, 
when you were head of it.
    So, for me, it is not just a question of what you are going 
to do. I think the real question is what we are going to do. 
How can people possibly talk about all the needs, as people 
here have at the panel, about the need for nurses, for mental 
health, the 22 suicides per day, which is a figure so shocking 
it is almost incomprehensible, the homelessness. Secretary 
Shinseki cut--in 1 year, he cut the waiting time down by one-
half, in a single year. So, that can be done, but you have to 
have good software. VA does not have good software. You do not 
need to be told that. You know that intuitively because you 
have run a great company. Everything counts.
    You are very much into corporate culture. You are very much 
into personnel evaluation and taking that as a very serious 
process, not in the sense of intimidating but in the sense of 
truth telling, which is a hard thing to do. You and I talked 
when we met about the problem in some of our great agencies, 
and I mentioned some of the intelligence agencies and other 
agencies which are huge, the Department of Defense, huge. VA is 
right up there with the Department of Defense in terms of 
numbers of people.
    So, the question is, what are we going to do. We can talk 
to you, at you, about wanting you to go ahead and get all those 
nurses and psychotherapists and all kinds of experimental 
research and cut down the waiting lines and get people the 
fantastic care, and then not give you a dime to do anything 
about it. That is what I fear. I have no fear about what you 
will do when you are in that position. I have a fear about what 
we will do as a Congress to support you so that we are not just 
blathering bromides of good feeling and good will, sympathizing 
with the veterans, and then putting up no money for you to do 
something.
    You cannot hire people without paying them. You cannot 
build stuff without paying for it. And, when you do, when 
people--when you do in a culture in our Senate, when you cannot 
put up any money for anything because it is considered you 
cannot possibly win your next election and it is against the 
Constitution and the Federalist, the Founding Fathers would 
have never allowed it, that is fine. One can feel good, I 
guess, on that. But, it sure is not going to help veterans. It 
sure is not going to help veterans.
    So, what I pray is that through a superb Chairman and 
through people like Patty Murray, the head of the Budget 
Committee, and others, that we will provide you with the 
resources that you need to be able to pay for what it is that 
you want to do. You are here to do the job. You are not 
sentimental about it. You are realistic. But, you need money 
and we have got to give it to you.
    Thank you, and good luck.
    Chairman Sanders. Thank you very much, Senator Rockefeller.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Mr. McDonald, thank you very much for the conversation we 
had.
    I would like to use my opening statement as an opportunity 
to talk about a slightly different topic, although related to 
VA, and I will use my later time to question you to try to 
highlight some things that I want to hear your response to.
    Mr. Chairman, I would like to encourage you and Senator 
Burr, as well as Congressman Michaud and Chairman Miller, to 
make certain that before we depart, that we have a report, a 
Conference Committee report on the Veterans Choice Act. While I 
certainly believe that a new Secretary was necessary--I 
indicated at the time that I asked for the previous Secretary's 
resignation that that, in and of itself, would be insufficient. 
It seems to me that the Senate and the House have acted in a 
responsible way in coming up with a plan that addresses the 
challenges that our veterans are facing today regarding lack of 
access and wait times, and it would be terrible on the part of 
the U.S. Senate and the U.S. House of Representatives if we 
failed to reach an agreement to conclude this work.
    I spoke on the Senate floor prior to the passage of that 
legislation, which passed 93-to-nothing, indicated how it is so 
disturbing to me to come to the U.S. Senate--I am in my first 
term--and we do nothing to solve the problems of the American 
people because the Senate does not function. We do not have 
bills on the Senate floor. We do not offer amendments. 
Committees do not do their work. There is no oversight.
    If we cannot come together on an issue related to 
veterans--this, of all issues that we face at this point in 
time in the United States, ought to be one that we can resolve, 
and the failure to do so would be terrible for the U.S. Senate, 
but more importantly, terrible for the veterans of our country, 
and one more time remind the American people how dysfunctional 
the U.S. Senate is today.
    So, what troubles me at the moment is the announcement 
yesterday by the Majority Leader that he believes it is 
unlikely that we are going to resolve our differences and have 
a vote on a Conference Committee. We ought not let that be the 
case; we ought not adjourn for an August recess in the absence 
of us reaching a conclusion. Do not walk away from this issue. 
The leadership of the Senate, the leadership of this Committee, 
individual Members of this Committee, individual members of the 
Senate, it is our responsibility to see that we accomplish the 
task we set out for and in benefit of the veterans of the 
United States of America.
    While it has been easy to criticize the Department of 
Veterans Affairs for their failures to our veterans, if we do 
not reach a conclusion on this legislation, the U.S. Senate is 
deserving of that same condemnation.
    Thank you, Mr. Chairman.
    Chairman Sanders. Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman, and thank you, 
Mr. McDonald, for your willingness to undertake this very 
serious and challenging responsibility. I am sure your family 
listening to us here wonders whether you were in your right 
mind in accepting the President's offer. But, I know, having 
talked to you--and, again, I want to join my colleagues in 
thanking you for coming by to see me--that public service is in 
your blood. It is part of who you are, and, I thank you for 
that ethic and tradition.
    I want to draw a comparison to a world more familiar to you 
than perhaps this one. You are about to take over a bankrupt 
corporation. The threat is financial, but the real insolvency 
is in morality and management. I think your background, your 
qualifications, your skills are extraordinarily well suited to 
these challenges.
    You know about the importance of truth telling in massive 
corporations. With 60,000 employees reporting to you and the 
soundness of your decisions on products and services depending 
on accurate data and information, you know that an organization 
like the VA, which has a bankrupt truth telling operation, 
cannot long survive in serving its customers well, and that 
includes providing bad news, which you know may sometimes be 
more useful than good news.
    I am very interested and grateful that in your testimony, 
you cite the West Point ethos of ``choose the harder right 
rather than the easier wrong.'' That is exactly what the VA 
needs.
    In addition to demanding accurate information, I think you 
will need to change leadership at the VA. Your background in 
developing leadership at Procter & Gamble makes you well suited 
to that task; and, of course, changing culture. Corporations 
depend upon their culture of striving to build new leadership 
and, at the same time, rewarding people for conveying bad news 
that has to be known and acting on the data in ways that are 
important.
    Our Nation's heroes are a public trust, so the corporation 
that you are about to take over will not be measured by its 
profitability but how well it serves our Nation's heroes--in 
health care, jobs, job training, skill preparation, in all 
kinds of areas that may not have been directly involved in the 
crisis that brought you to this position.
    In addition to the continued attention to wait times and 
strategies that are implemented as a result of the data 
analysis and improved access to care, we need concern about the 
predatory practices of some for-profit colleges that receive 
funding for G.I. education benefits, concern about our female 
veterans, who all too often lack access to the best care, 
especially when they have been victims of PTS or military 
sexual assault, and the need for strong whistleblower 
protections against retaliation from those employees who may 
come to you with their concerns and with the truth telling that 
is so necessary.
    I want to affirm my own commitment to helping you in any 
way that I can. I believe that we are all rooting for you, not 
just in some abstract or conceptual way, but we are in your 
corner. We are rooting for you. I believe that you have a 
unique and a historic opportunity to get done a job that all of 
our Nation's heroes will be grateful to you for doing. Thank 
you very much.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Blumenthal.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you, Mr. Chairman, and thank you, 
Mr. McDonald, for being here. I certainly offer a warm welcome 
to you and your wife.
    I appreciated visiting with you last week and I am glad 
that you have become familiar with Arkansas in your past 
business endeavors. You have an impressive resume. Your 
commitments to family and country are obvious from our 
discussion, and I know you will remain rooted in these as we 
move forward.
    Today, VA is failing our Nation's veterans, and from all 
accounts, the issues plaguing VA are systemic and require big 
change, certainly in the current culture. This agency is broken 
and we need a leader at the top determined to and equipped with 
the skills to change the pattern and get us back to our main 
mission and responsibilities.
    The inability of VA to deliver timely, quality care and 
allegations of manipulation of patient data has given a black 
eye to the agency tasked with caring for and serving our 
Nation's heroes. The stories coming out of VMCs across the 
country are simply heartbreaking and unacceptable. I firmly 
believe that a lack of accountability is the root cause of the 
problems facing VA today.
    Although the mission of VA is different from other Federal 
agencies, it is still part of the bureaucracy in Washington, 
and as we all know, bureaucracy must be managed accordingly. 
Failure to do so will only lead to a path of failure itself.
    The position of VA Secretary comes with tremendous 
responsibility and commands someone who understands the 
sacrifices and needs of both our veterans and their families. 
The next Secretary of VA must be willing and ready to lead the 
VA in a new direction.
    While I am grateful for the service of both General 
Shinseki and Acting Secretary Sloan Gibson and thousands of 
dedicated employees on the ground, I believe the current state 
of affairs at VA demands bold leadership and a complete 
transformation in the culture at the agency.
    The problems facing VA did not happen overnight and solving 
them will not be an easy task. Despite this, I believe with the 
right person at the helm, a person willing to work with 
Congress and other stakeholders, the challenges facing VA can 
be met and our expectations exceeded.
    At the end of the day, we must never forget our Nation's 
veterans. Their sacrifice and service to this Nation is second 
to none. Not only do they deserve our gratitude, but they 
deserve the benefits that they have earned, delivered 
consistently and timely. Anything less is unacceptable. Their 
commitment to country is without question and our commitment to 
them must be the same.
    I will close with this. I believe choosing the next VA 
Secretary is only the first step of many toward getting VA 
headed back in the right direction. I am committed, along with 
my colleagues, to seeing that the next Secretary of VA delivers 
the change that the agency so desperately needs.
    Once again, I welcome you and thank you for your 
willingness to serve, for being here today, and I look forward 
to hearing directly from you, Mr. McDonald, in your testimony 
on the vision for VA.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Boozman.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman.
    Mr. McDonald, thank you for your willingness. Thank you for 
your willingness to serve your country as a public servant. 
Thank you to your family, because it is going to be a lot of 
stress on them, and I know that, so, again, thank you. It is a 
lot of work and a lot of commitment to participate in the 
Federal Government in this way, and especially at this unique 
time with the VA.
    I did not really have a prepared opening, but let me just 
say this. You are going to hear a lot of noise out there. You 
know, one thing about D.C. is the noise happens every minute 
and it changes every minute. My hope is, based on your 
experience and what I have read--and I am very supportive of 
seeing you as the next Secretary--I think it is important that 
you hone in and be bold about what needs to be done, not 
hesitate when you think there need to be changes, and when 
people need to be let go, you let them go, because your 
experience in the private sector has taught you how to run an 
efficient operation.
    I come from the private sector, and I understand that it is 
important. I was also a mayor of a city in which I had to let 
some people go. Maybe it was not the best time for them, but it 
was important for the broader perspective of what we were 
trying to do in delivery of services.
    So, as I look at your resume and the work you have done, I 
commend you for it, and I think a lot of people are putting a 
lot of expectation on you. I look at you and I think to myself 
that this is an opportunity, as many have said here, to take a 
situation of the VA that is struggling, struggling with trust 
among the public and its recipients to the legislative bodies, 
to figure out what to do next and how to do it.
    I will also say, I am hopeful, too, that we do have a 
comprehensive reform bill to our Veterans Health Care System. 
But, that is not going to be the only answer. The reality is, 
there are many things that we are going to put into that 
legislation that you could do right now. You can take charge 
and do these things.
    I would ask you not to wait for us. The minute you are 
confirmed, get busy, because there are too many needs in 
Alaska. With 77,000 veterans waiting for care, we did not wait 
around 5 years ago when I got elected. When I saw a waiting 
list of 1,000, you know, this is not new. Last week, I was 
here. I presented a report. In 2003, 11 years ago, we heard the 
same story. It is like, deja vu; here we go again. I was not 
there. I was not around in 2003.
    But, I am here now, and I can tell you, in Alaska we have 
done some things that are very innovative. We do not have a 
Veterans Hospital, like many of these States that are 
represented at this table. We have a clinic and the hospital is 
in Seattle. But, one-fifth of the size of the country is 
Alaska, in its size and vastness. So, we have to think of 
different things: how to deliver health care, to make sure 
every veteran, no matter where they live, can get access.
    We have done that in a way that manages it so we manage 
expectations, because I think some people will say, just open 
up the system to every private doctor in the world and it will 
all be solved. I do not know how long it takes you to get a 
doctor's appointment. I know what it takes me to get a doctor's 
appointment, and if anyone needs mental health services in this 
country, the waiting list is a mile long. I have legislation to 
hopefully solve that problem, or at least address that problem.
    Again, I think it is important and I am anxious for you to 
get on the job. I hope you do not get caught up in the politics 
of what goes on around this place. I notice by your disclosure 
we may have differences in maybe our past politics, but I look 
at it and that is the greatest thing about this body, this 
Committee. We do not look at the politics. We look at what you 
can do, and your history tells me you are the right guy at the 
right time and I am looking forward to it.
    You will probably hear a lot from me because I am a very 
detailed person about how to deliver a system. We have done it 
in Alaska. We have more improvements to do. I think there are 
huge opportunities around the country that you can take right 
now.
    I would hope we would have a bill before we break, but if 
we do not and we get you confirmed, get busy. Be bold--not 
reckless, but be bold. Inform us as you move forward. Keep us 
in the loop. Sometimes, in informing us, we may not want to 
hear what you have to tell us, but moving forward is more 
important, to keep the VA moving forward.
    So, I really just thank you for your willingness to step 
forward. I will have some questions here when we get to Q&A. 
But, again, your public service is an important part of serving 
this country and I thank you now for the second time serving 
our country. I appreciate it.
    Chairman Sanders. Thank you, Senator Begich.

    Mr. McDonald, we are now pleased to hear from you, but 
before we do that, let me swear you in, please.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. McDonald. I do.
    Chairman Sanders. Thank you very much.
    Mr. McDonald, we are now very pleased to hear your 
testimony.

STATEMENT OF ROBERT A. McDONALD, NOMINEE TO BE SECRETARY, U.S. 
                 DEPARTMENT OF VETERANS AFFAIRS

    Mr. McDonald. Well, thank you, Chairman Sanders. Thank you, 
Ranking Member Burr, distinguished Members of the Committee on 
Veterans' Affairs, and veterans here and across the country. 
Thank you for the privilege of addressing you today.
    I am honored to be before you seeking your endorsement to 
become the Secretary of Veterans Affairs. Thank you for 
scheduling this hearing so expeditiously.
    I would like to introduce my wife of nearly 37 years, 
Diane, who is sitting behind me. Diane and I are blessed with a 
wonderful family. However, only Diane was able to be here 
today.
    I would also like to thank Senator Brown and Senator 
Portman for their kind introductions and for their friendship 
and their partnership over the many years that we have worked 
together to make Ohio greater and to make the Procter & Gamble 
Company greater.
    I very much appreciate the confidence of President Obama in 
this nomination and I am fully committed to fulfilling this 
charge to me, that is, to transform the Department of Veterans 
Affairs into an organization that delivers on its mission. That 
mission is to fulfill President Lincoln's promise ``to care for 
him who shall have borne the battle and for his widow, and his 
orphan,'' and by serving and honoring the men and women who are 
America's veterans. I also want to create an organization that 
lives by its core values. Those values are integrity, 
commitment, advocacy, respect, and excellence.
    Over the last several weeks, I have had the opportunity to 
meet with many of you individually, and I deeply appreciate the 
Committee's concern and unwavering support for our veterans and 
for the mission of the Department of Veterans Affairs. I have 
listened carefully to your concerns and advice, and I have 
benefited from your counsel.
    As explained by Senators Brown and Portman, my life's 
purpose has been to improve the lives of others. My time at 
West Point and as an Airborne Ranger Captain in the 82nd 
Airborne Division instilled in me a lifelong sense of duty to 
country. My values are steeped in my experiences at West Point 
and in the military. Those values are what allowed me to be an 
effective leader at the Procter & Gamble Company, and those 
values are what I will bring to the management of VA. I am 
still guided by that West Point Cadet Prayer which encouraged 
us to choose the harder right rather than the easier wrong.
    For me, taking care of veterans is very personal. I come 
from and care deeply for military families. My father served in 
the Army Air Corps after World War II. My wife's father was 
shot down over Europe and survived harsh treatment as a POW. 
Her uncle was exposed to Agent Orange in Vietnam and still 
receives care from the VA. My nephew right now is in the Air 
Force, flying missions over the Middle East.
    My 33 years with Procter & Gamble taught me the importance 
of effective management, strong leadership, and of being 
responsive to the needs of customers. When I joined the company 
in 1980, we recorded $10 billion in sales. Today, that business 
is over eight times larger, at $84 billion, with almost double 
the number of employees, and P&G's brands are present in nearly 
every country of the world. I helped lead this transformation. 
I am a forward-looking leader who spent my business career 
expanding P&G to serve new, emerging, and under-served 
customers. That is the experience needed to modernize the VA.
    As I met with Members of this Committee over the past few 
weeks, you have told me the depth of crisis at the Department 
of Veterans Affairs. While there is much that is going well, 
there have been systematic failures which suggest that some in 
the organization have lost track of the mission and core 
values. The Department's problems with access, transparency, 
and accountability and integrity are all well documented. There 
is a lot of work to do to transform the Department. It will not 
be easy. But, it is essential and it can be achieved.
    The seriousness of this moment demands action, and if 
confirmed, I pledge to the Committee and to our Nation's 
veterans to take a series of immediate actions over the first 
90 days to deliver the needed reforms our veterans deserve. I 
will put the veteran at the center of everything that we do, 
consistent with our mission.
    If confirmed, on day one, I will lay out my leadership 
vision directly to all VA employees. My charge will be to 
provide veterans the care that they have earned in the most 
effective way possible. I will ask VA employees to join me in 
reconfirming our commitment to VA's mission and core values.
    I also plan to ask all employees to bring forward any 
information, any concerns, any problems that exist so that I, 
as a leader, will know the full picture of what is going wrong 
and what we can improve. If confirmed, it will be important to 
incentivize this process and reward those that constructively 
come forward to solve problems. I have much to learn about the 
organization and I look forward to gaining valuable input and 
insights from its employees as well as veterans and other 
stakeholders.
    If confirmed, I will also renew the Department's Strategic 
Plan and ensure it is properly deployed so that every 
individual in the organization knows how their work every 
single day ties back to the strategic plan and to the mission 
of caring for veterans. By getting out in the field and talking 
with veterans and employees, I will learn as much about the 
organization as possible so I will be able to determine the 
processes that would need to be reorganized or streamlined.
    In order to regain the trust of the American people, and 
most importantly, veterans, we must ensure every employee has 
an action plan in their Annual Performance Review that rolls up 
to the Strategic Plan and the mission for the Department. The 
majority of employees at VA are dedicated to the mission and 
the values of the organization. But, those employees that have 
violated the trust of the Nation and of veterans must be and 
will be held accountable.
    If confirmed, I plan to improve the communication between 
the field structure and the central office, between the 
employees and the leadership. I also plan to travel extensively 
over the first several months to hear directly from employees, 
veterans, and other stakeholders. I plan to establish a Board 
of Physicians to advise the Secretary on best practices for 
delivering timely and quality health care.
    If confirmed, I will focus on reorganizing the Department 
to more efficiently and more effectively use our resources to 
get care that the veterans deserve and have earned.
    The Department must improve its forecasting and develop a 
strategy for meeting increased demand. At the same time, I 
believe the Department will need to continue to expand the use 
of digital technology to free human resources that can be 
applied more to the care of veterans. Further, I plan to take 
advantage of VA's scale to improve productivity and flow more 
people to the work.
    It is clear that VA must be more efficient and more 
productive. The Department needs to demonstrate that it can 
manage a complex facilities portfolio, that it can create with 
the Department of Defense an integrated records system, that it 
can regularly and accurately produce key data for 
decisionmakers and oversight entities, and most importantly, 
provide the veterans the highest quality and cost effective 
benefits possible. All of these things are possible. They are 
possible through some of the steps I have outlined here.
    If confirmed, I will work to transform the Department of 
Veterans Affairs. I will continue to partner with you and all 
the Department's stakeholders. VA has made great strides in 
serving veterans, thanks to the commitment of many dedicated 
employees and the hard work with our partners and advocates in 
the community.
    The VA is in crisis. The veterans are in need. There is 
much to do. And, I can think of no higher calling--no higher 
calling--than to serve our veterans who have so selflessly 
served all of us. With your support, I am confident that we 
will succeed at the Department of Veterans Affairs.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. McDonald follows:]
Prepared Statement of Mr. Robert A. McDonald, Nominee to be Secretary, 
                  U.S. Department of Veterans Affairs
    Chairman Sanders, Ranking Member Burr, distinguished Members of the 
Committee on Veterans' Affairs, and veterans here and across the 
country. Thank you for the privilege of addressing you today. I am 
honored to be before you today seeking your endorsement to become the 
Secretary of the Department of Veterans Affairs. Thank you for 
scheduling this hearing so expeditiously.
    I would like to recognize my wife of nearly 37 years, Diane. Diane 
and I are blessed with three living parents (her father has passed 
away), and two children Jenny and Rob. Jenny is married to Scott, and 
Jenny and Scott have blessed us with two grandchildren, Matthew and 
Michael. Only Diane could be here today.
    Over the last several weeks, I have had the opportunity to meet 
with many of you individually. I deeply appreciate the Committee's 
concern for and unwavering support for our veterans and for the mission 
of the Department of Veterans Affairs. I've listened carefully to your 
concerns and advice, and have benefited from your counsel.
    I very much appreciate the confidence of President Obama in this 
nomination and am fully committed to fulfilling his charge to me--that 
is, to transform the Department of Veterans Affairs into an 
organization that delivers on its Mission. That Mission is to fulfill 
President Lincoln's promise ``To care for him who shall have borne the 
battle, and for his widow and his orphan'' and by serving and honoring 
the men and women who are America's Veterans. I also want to create an 
organization that lives by its Core Values of integrity, commitment, 
advocacy, respect, and excellence.
    My life's purpose has been to improve the lives of others. I went 
to West Point to be an officer in the Army to try to help free people 
who were living in non-free societies. I became an Airborne Ranger 
Infantry Officer in the 82nd Airborne Division because I wanted to be 
on the front line in leading that change. I joined The Procter & Gamble 
Company 34 years ago because of its purpose, which is to improve the 
lives of the world's consumers.
    My time at West Point and as a Captain in the 82nd Airborne 
Division instilled in me a lifelong sense of duty to country. My values 
are steeped in my experiences at West Point and in the military. Those 
values are what allowed me to be an effective leader at Procter and 
Gamble--and those values are what I will bring to the management of the 
VA. I am still guided by the West Point Cadet Prayer, which encourages 
us to ``choose the harder right rather than the easier wrong.''
    For me, taking care of veterans is personal. I come from and care 
deeply for military families. My father served in the Army Air Corps 
after World War II. My wife's father was shot down over Europe and 
survived harsh treatment as a POW. Her uncle was exposed to Agent 
Orange in Vietnam and still receives care from VA. My nephew is in the 
Air Force, deployed in the Middle East.
    My 33 years with the Procter & Gamble Company taught me the 
importance of effective management, strong leadership, and of being 
responsive to the needs of customers. When I joined the company in 
1980, we recorded $10 billion in sales with over 60,000 employees and 
with an extensive domestic and international field structure. Today 
that business is over eight times larger, at $84 billion, with almost 
double the number of employees. Now P&G's brands are present in nearly 
every country of the world. I helped lead this transformation.
    I am a forward-looking leader who spent my business career 
expanding P&G to serve new, emerging, and underserved customers. For 
example, during my time at the company, we worked to digitize the 
operations of P&G from end to end, including using digital technology 
in remote areas to acquire and serve new customers. We added 
approximately one billion new customers over four years.
    That's the experience needed to modernize VA to serve the next 
generation of returning warriors, including women, post-9/11 veterans 
with complex injuries, and those suffering from Traumatic Brain Injury 
and Post-Traumatic Stress Disorder.
    As I have met with Members of this Committee over the past few 
weeks, you have told me the depth of the crisis at the Department of 
Veterans Affairs. While there is much that is going well, there have 
been systematic failures, which suggest that some in the organization 
have lost track of the Mission and the Core Values. The Department's 
problems with access, transparency, accountability, and integrity have 
been well documented by this Committee and your congressional 
colleagues, as well as by the President, Secretary Shinseki, Acting 
Secretary Gibson, the Inspector General, the Government Accountability 
Office, the Office of Special Counsel, Veterans Service Organizations, 
and Military Service Organizations. There is a lot of work to do to 
transform the Department and it will not be easy, but it is essential 
and can be achieved.
    The seriousness of this moment demands urgent action, and if 
confirmed, I pledge to this Committee, and to our Nation's veterans, to 
take a series of immediate actions over the first 90 days to deliver 
the needed reforms our veterans deserve. I will put the veteran at the 
center of all we do, consistent with our Mission.
    If confirmed, on day one, I will lay out my leadership vision 
directly to all VA employees on a national video conference with all VA 
sites. My charge will be to provide veterans the care they have earned 
in the most effective way possible. I will ask VA employees to join me 
in reaffirming our commitment to VA's Mission and Core Values. I also 
plan to ask all employees to bring forward any additional flags, 
concerns, or problems, so as the leader, I know the full picture of 
what's going wrong and what can be improved. If confirmed, it will be 
important to incentivize this process and reward those that 
constructively come forward to solve problems. I have much to learn 
about the organization and look forward to gaining valuable input and 
insights from its employees as well as veterans and other stakeholders.
    If confirmed, I will also renew the Department's strategic plan and 
ensure it is properly deployed, so that each individual in the 
organization knows how their work every day ties back to the strategic 
plan and the Mission of caring for veterans. In the short term, this 
will mean asking employees to refocus on the Mission and Values of VA. 
By getting out in the field and talking with veterans and employees and 
learning as much about the organization as possible, I would be able to 
determine the processes that would need to be reorganized or 
streamlined.In the longer term, this will require restructuring 
employees' performance metrics and evaluations.
    In order to regain the trust of the American people, and most 
importantly veterans, we must ensure every employee has an action plan 
in their annual performance review that rolls up to the strategic plan 
and Mission of the Department. The majority of employees at VA are 
dedicated to the Mission and Values of the organization. But, those 
employees that have violated the trust of the Department and of 
veterans must be, and will be, held accountable.
    If confirmed, I plan to improve the communication between the field 
structure and the central office; between the employees and the 
leadership. I will start by hosting quarterly video conferences with 
the entire field structure. I also plan to travel extensively over the 
first several months to hear directly from employees, veterans, and 
other stakeholders. I also plan to establish a board of physicians to 
advise the Secretary on best practices for delivering timely, quality 
health care.
    If confirmed, I will also focus on reorganizing the Department to 
most efficiently and effectively use our resources to get veterans the 
care they earned and deserve. The Department must improve its 
forecasting and develop a strategy for meeting increased demand. At the 
same time, I believe the Department will need to continue to expand the 
use of digital technology to free human resources that can be applied 
more to care for the veterans. Further, I plan to take advantage of 
VA's scale to improve productivity and flow people to the work. Today, 
the Department operates as loosely-connected individual 
Administrations. Tomorrow, I hope the Department can be ``one team with 
one dream'' that will be to get the best care and services to our 
veterans in an efficient and timely manner.
    It is clear that VA must be more efficient and productive. The 
Department needs to demonstrate that it can manage a complex facilities 
portfolio; that it can create, with Department of Defense, an 
integrated records system; that it can regularly and accurately produce 
key data for decisionmakers and oversight entities; and most 
importantly, providing to veterans the highest quality and most cost-
effective benefits possible. All of these things are possible through 
some of the steps I've outlined here and will continue to pursue: 
expanding the use and application of technology; redefining roles, and 
increasing accountability.
    If confirmed, I will work to transform the Department of Veterans 
Affairs. I will continue to partner with you, members of the Senate 
Committee on Veterans Affairs, others in Congress, government agencies, 
Veterans Service Organizations, and other stakeholders.
    The Department has made great strides in serving veterans thanks to 
the commitment of many dedicated employees, and hard work with our 
partners and advocates in the community. But the VA is in crisis. The 
veterans are in need. There is much to do. I can think of no higher 
calling than to serve our veterans who have so selflessly served our 
country. With your support, I am confident we will succeed at the 
Department of Veterans Affairs.

    Thank you. I look forward to your questions.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Bernard Sanders to 
Robert A. McDonald, Nominee for Secretary, U.S. Department of Veterans 
                                Affairs
    Question 1.  What are the most pressing challenges confronting the 
Department and, if confirmed, what steps could you take to immediately 
begin addressing these challenges?
    Response. The Mission of the Department of Veterans Affairs is to 
fulfill President Lincoln's promise `` `* * * To care for him who shall 
have borne the battle, and for his widow and his orphan' by serving and 
honoring the men and women who are America's veterans.'' An important 
step in assuring appropriate care for veterans is restoring their trust 
in the system. One of the Department's Core Values is integrity. 
Recently some in the organization have not delivered on the Mission and 
have violated the Core Value of integrity. Step one is to immediately 
get veterans the care they have earned. This will include getting 
veterans access to treatment and further reducing the backlog of 
claims, including appeals; two of the three Agency Priority Goals for 
2014-2015. To achieve this the Department will need to work with 
Congress to add more points of treatment, additional staff to provide 
the treatment, and an improved scheduling system to replace the current 
system which was created in 1985. If confirmed, I will ask all 
Department of Veterans Affairs employees to reconfirm their commitment 
to the Mission and Values of Integrity, Commitment, Advocacy, Respect, 
and Excellence. VA will find those who violated our Value of integrity, 
both those who falsified records and those who tolerated it, and take 
appropriate action. We may need Congress' help to discipline employees 
who have violated the public's trust.

    Question 2.  What lessons did you learn as CEO of Procter and 
Gamble that you plan to apply to leading the VA? Do you anticipate that 
you will have to change your leadership style to manage such a large 
public organization?
    Response. I've learned many lessons about leadership throughout my 
life: at West Point, in the Army, and at P&G. I've codified these 
lessons and taught them globally. They are included in a document that 
I have maintained over the years entitled, ``What I Believe In.'' I 
have also spoken about this topic all over the world in a speech 
entitled, ``Values-Based Leadership.'' The most relevant of those ten 
beliefs include:

    a. Living a life driven by purpose is more meaningful and rewarding 
than meandering through life without direction. My life's purpose is to 
improve lives. This operates on many levels. I worked to improve the 
lives of the nearly 5 billion people in the world who used at least one 
P&G brand each day, and I work every day to have a positive impact in 
the life of just one person. This life-goal led me to attend West Point 
and become an Airborne Ranger in the U.S. Army, and to join The Procter 
& Gamble Company. People like to work for leaders who operate with a 
clear and consistent purpose. If confirmed at VA I will make my purpose 
clear and ask every VA employee to reaffirm their commitment to the 
Department's Mission and Values.
    b. Putting people in the right jobs is one of the most important 
jobs of the leader. Every Fortune 500 CEO will tell you the thing they 
regret most is it took them too long to get the right people in the 
right jobs on their leadership team. Leadership author Jim Collins 
talks about ``getting the right people on the bus and in the right 
seats on the bus.'' VA must get the right leaders in place. There are 
several vacancies, and there are leaders who have underperformed. A 
top-to-bottom evaluation of employees will need to be done, and VA will 
work with Congress to get authority to separate those who violated our 
Mission and Values, differentiate individuals through a robust review 
process, work with Congress to get new nominees confirmed, and hold 
people accountable.
    c. Character is the most important trait of a leader. At West Point 
I learned that the character of a leader is their most important 
attribute. Character is defined as always putting the needs of the 
organization above your own. As a Captain in the Army, I always ate 
after the soldiers in my command. At P&G the leader should always take 
personal responsibility for results of their organization. As a West 
Point plebe (freshman) I learned that I was only permitted four 
answers: yes, no, no excuse, and I do not understand. These four 
answers are about character; there is no opportunity for equivocation 
or excuse; there is no ``but.'' At West Point I also learned to 
``choose the harder right instead of the easier wrong.'' This powerful 
line comes from the West Point Cadet Prayer. VA has individuals not 
properly serving their veteran customers, and some who have done the 
easier wrong rather than the harder right. Again, we need to identify 
those that have violated our Mission and Values and work with Congress 
to separate them.
    d. Ineffective systems and cultures are bigger barriers to 
achievement than the talents of people. In Total Quality training, a 
system built by business reengineering expert W. Edwards Deming, I 
learned how difficult it was to pick up the right proportion of red and 
blue beads if the device we were using to pick them up was rigged to 
get a bad result. The role of the leader is to improve the systems and 
the culture in which their organization operates to improve the 
consistency and level of success of the results. At VA an antiquated 
scheduling system and a 14-day metric that became an ends rather than a 
means got in the way of the organization providing quality care for 
veterans. Similarly, forecasting of veterans' needs appears to have 
been inadequate. VA will need to identify the inadequate systems and 
get them fixed. If I am confirmed, we also need to overhaul the culture 
to be consistent with VA's Mission and Values.
    e. The majority of the men and women at VA are dedicated to the 
Mission and Values of the organization. Yet, there are those who have 
violated them or who are not capable of rising to our Values. We need 
to differentiate between the two, reward those performing at a high 
level, and separate those who violated the Mission or Values or are 
incapable.
    f. Organizations must renew themselves. Any organization that is 
growing must renew itself. Growth by definition requires change. Change 
requires renewal. Recruiting and training are top priorities. The 
standards of performance that are acceptable today will be unacceptable 
tomorrow if the organization is growing and improving. As such, the 
leader must provide training and development opportunities for the 
individuals in the organization to grow. Given the current crisis, 
dramatic renewal and change is required at VA.

    Yes, I anticipate I will need to modify my leadership style to 
succeed in leading in government. This was certainly the case when I 
moved from the United States to Canada to the Philippines to Japan and 
to Belgium with P&G. Each of these countries has a unique culture. To 
be effective, the leader must know the culture and adapt their 
leadership to be effective. For example, in Japan there is a culture of 
lifetime employment. It is more difficult to separate a poor performing 
employee. While the principles of leadership do not change from country 
to country, the application and execution may. I follow a leadership 
model we call the 5E model: envision (what does winning look like?), 
engage (engage people in the creation of the vision), energize (get 
employees motivated to deliver the vision), enable (build the 
capability needed to achieve the vision), and execute (the only 
strategy anyone sees is the one we execute). Those 5 E's remain the 
same, but ``how'' we execute them will differ.

    Question 3.  How do you go about restoring veteran trust in the 
Department?
    Response. In a crisis situation like this, the leader must be very 
visible, very clear on the Mission and how we will get there, and 
provide hope to customers (veterans) and employees alike that we can 
change and deliver the Mission. This must be done by traveling to sites 
around the country, meeting with veterans and VA employees. I will also 
reach out to Veterans Service Organizations, whose input is critical in 
regaining the trust of veterans. If confirmed, I will quickly address 
the problems and provide concrete examples that we are on the right 
track.

    Question 4.  Please describe how you intend to interact with the 
military and veterans service organizations.
    Response. Veteran Service Organizations are important stakeholders 
of the Department of Veterans Affairs. They can provide helpful 
grassroots information, advice, and support. I have already called the 
VSO and MSO leaders to learn the problems they are seeing and gain 
their counsel. Regular communication with them is critical to our 
success. General Shinseki had a monthly breakfast with VSO leaders, 
which I would like to continue if confirmed. Additionally, I would plan 
to increase Department interaction with these leaders.

    Question 5.  Rob Nabors' report to the President identified VA's 
inability to clearly articulate budgetary needs and tie those needs to 
specific outcomes as an issue impacting access to timely care. The 
accurate forecasting of the utilization of both care and benefits is a 
necessary component needed to adequately plan for and resource their 
delivery. If confirmed, what actions would you take to ensure VA 
provides accurate and timely budget forecasts to the Congress?
    Response. We need to appropriately forecast veteran demand and work 
with Congress to provide the right supply mechanism. Clearly the VA was 
challenged by the Agent Orange recipients of care (my wife's uncle is 
one of those recipients), fighting two wars over ten years, and the 
demographics of an aging population. After World War II the average 
veteran had one claim of disability; today's veteran averages 15. If 
confirmed, I plan to ensure the Department has a robust planning and 
forecasting process working with Congress. This forecast will drive the 
strategic planning process which will permeate the organization. 
Success will be every employee in VA having an action plan on their 
personal annual performance review that will link back to this 
strategic plan and forecast. If confirmed, I will be able to test if 
this is successful as I tour the myriad of VA sites and interact with 
employees.

    Question 6.  What are your views on how technology might be used to 
enhance the delivery of benefits and services across the Department?
    Response. Technology is a key enabler to providing care to veterans 
at a cost effective level of productivity. It also enables staying 
connected to veterans. At P&G it was my goal to become the most 
digitized company in the history of the world. My undergraduate degree 
from West Point is in engineering, and I took every course on computer 
software and hardware, and wrote an assembly program for the West Point 
computer to take Fortran down to machine language. At P&G we improved 
productivity by digitizing our work from the creation of molecules to 
tracking the products sold in stores. We also attempted to create a 
one-on-one relationship with every consumer in the world via digital 
technology, and this is applicable to how VA can strengthen its 
relationship with veterans.

    Question 7.  DOD and VA collaboration is an area in which I have 
deep concern and continue to believe holds great promise for improved 
operations and delivery of care and benefits to servicemembers and 
veterans. Where do you see room for improvement in the existing 
collaboration between the departments? What actions would you take, if 
confirmed, to ensure there is robust and effective collaboration 
between DOD and VA?
    Response. I agree that the partnership between DOD and VA holds 
great promise. The life of a veteran begins with the oath of service 
and ends with death. DOD and VA need to partner to care for the veteran 
seamlessly along that life timeline. We also need to ensure our record 
keeping is integrated and consistent across that timeline. I had a very 
positive meeting with Secretary Hagel on Tuesday, July 15, 2014, and we 
are committed to continued collaboration to deliver on this promise.

    Question 8.  How can VA do a better job of ensuring veterans are 
aware of the benefits and services provided by VA?
    Response. VA needs to develop a valued one-on-one relationship with 
every veteran. Individuals start to become veterans the day they take 
the oath of service. DOD and VA working seamlessly can ensure that 
every servicemember is aware of and enrolled for their VA benefits even 
before the day they leave the service. Every veteran deserves to have a 
seamless transition, and while work has begun in this area with the 
Transition Assistance Program, it is important to increase the 
awareness of benefits, services and opportunities available.
    My experience at P&G allowed me to learn how to reach people with 
our brands in remote locations. We added about one billion new 
consumers buying P&G products during my four years as CEO. The use of 
digital technology and the increased penetration of mobile smart phones 
were ways we could reach people and serve them. VA's VSO and MSO 
partners are a great resource for us to develop in this capacity.

    Question 9.  VA's culture has been described as corrosive and 
nonresponsive. How do you change the culture of a large public 
organization? What actions, if confirmed, would you take immediately to 
address the cultural problems faced by VA?
    Response. In organizations as large as P&G and VA it is imperative 
that employees at all levels in the organization affirm and reaffirm 
regularly their commitment to the Mission and Values of the 
organization. I believe VA has an appropriate Mission and Values 
statement, yet behavior has been inconsistent with it. Similarly, I 
think that VA has a robust strategic plan, yet my belief is the 
Mission, Values, and strategic plan have not been reaffirmed or 
deployed in the organization so that the actions of all employees tie 
back to the plan. At P&G my acid test for success is whether or not I 
could roll up the actions in every employee's annual performance plan 
to the overall strategic plan of the company. If confirmed, I plan to 
travel to VA facilities, talk to employees, and get a sense for where 
the breakdown occurs. We will catalyze an opportunity for VA employees 
to reaffirm themselves to VA's Mission and Values, have line of sight 
of how their behavior every day ties back to the strategic plan and 
Mission, and we will create a culture of transparency and 
responsibility as we do this. Employees must feel like they can speak 
up and push back in order to create a high performance organization.

    Question 10.  Secretary Shinseki set an ambitious goal of 
eliminating the compensation claims backlog by 2015 and providing 
veterans a decision on their claim within 125 days and 98 percent 
accuracy. Would you maintain that goal?
    Response. Yes. It is my understanding that Secretary Shinseki set 
the metric of 125 days and 98 percent accuracy as an aspirational goal, 
and the intent was to continue to work to shorten the timeframe and 
increase the percent accuracy until it was no longer an issue. I 
certainly support that intent. VA's primary goal must always be to get 
veterans the benefits and care that they have earned. While there has 
been progress in eliminating the claims backlog, more work needs to be 
done.

    Question 11.  What steps would you take to continue the claims 
transformation and ensure lasting success? Further, how would you 
address the growing number of appeals and other work pending in the 
regional offices, which has continued to climb despite the significant 
reduction in claims measured as part of the backlog?
    Response. The VA needs to continue to digitize the claims and 
appeals process to get the veterans the benefits they earned more 
effectively and more efficiently. At P&G we have the experience of 
digitizing a work process and then reassigning the people freed by the 
automation to focus them on a different high priority task. If 
confirmed, this is the kind of culture and work process redesign I plan 
to create at VA.

    Question 12.  If confirmed, you will be tasked with overseeing a 
health care system that has significant capital infrastructure needs, 
in conjunction with an infrastructure budget that pales in comparison. 
What are your thoughts on how VA might do a better job of managing its 
construction backlog to ensure that VA facilities are the safe, secure, 
and effective spaces veterans deserve to access care in?
    Response. In many ways the question of infrastructure and 
construction is about access. The process would start with improving 
our forecasting of veterans needs and collaborating with Congress to 
ensure those needs are transparently shared. At the same time, we would 
work to provide veteran access in a number of ways customized to the 
individual veteran need. In many cases a physical clinic may be 
required, but in others a videoconference may be sufficient. Where 
physical infrastructure is needed we will partner with other government 
agencies like the Corps of Engineers and private companies to find the 
best way to build and run these facilities to benefit the veteran. 
Collaboration and the identification and implementation of best 
practices is key.

    Question 13.  Acquisitions continue to be an area where VA can 
realize savings through enhanced oversight and management. If 
confirmed, what action would you take in order to ensure VA is 
acquiring the right products, in accordance with the law, while 
spending its budget in the most efficient means possible?
    Response. At P&G we made a number of changes to our Global 
Purchasing organization that resulted in real benefits in effectiveness 
and efficiency that may be applicable to VA. We reorganized purchasing 
into global spend pools: rather than having each division of the 
company buy the same item, the demand was aggregated, scale was 
leveraged for better quality and lower price, and the identical item 
was bought by one buyer. We also developed strategic relationships with 
our suppliers so we could move our needs further upstream in their work 
system, resulting in better innovation to meet our needs. This 
centralization also resulted in better productivity, so we were able to 
redeploy some employees against high priority tasks. And it resulted in 
better quality since we were able to exercise the scale of the company. 
This may be in area where further scale could be gained with DOD and VA 
partnership.

    Question 14.  VA has done a great deal of work to eliminate 
homelessness among veterans in accordance with President Obama's goal 
to end veteran homelessness by 2015. While much progress is being made, 
there are still populations such as homeless veteran families, homeless 
women veterans, and homeless veterans in rural areas, to name a few, 
that may not be able to access the same level fo services as other 
populations. What are your thoughts on how VA might do a better job at 
meeting the needs of these unique populations? Are there actions you 
think should be taken in collaboration with other departments or 
agencies including the Interagency Council on Homelessness in order to 
more efficiently achieve this goal?
    Response. Chronic homelessness in the veteran population is a 
serious problem, and while progress has been made, certain populations 
are especially difficult to reach. If confirmed, we will need to focus 
on these more challenging groups, understand the root cause of why they 
present such a significant challenge, and design training programs for 
employees that would improve our success rate and reduce homelessness. 
Consistent follow up, sharing of best practices, training of employees, 
transparent reporting, and holding employees accountable are all part 
of improvement.

    Question 15.  What do you believe is the appropriate role of 
oversight entities including the Congress, the Government 
Accountability Office, and Office of Inspector General?
    Response. One aspect of successful leadership that I firmly believe 
in is engagement or collaboration. Stephen Covey wrote in his Seven 
Habits of Highly Effective People that individuals grow in 
effectiveness when they graduate from dependence to independence to 
interdependence. Effective leaders work interdependently to harness 
resources outside their own organization to focus and solve problems. 
If confirmed, I plan to partner with Congress, GAO, and the OIG to 
improve the effectiveness and efficiency at VA. At the same time, we 
would engage Veteran Service Organizations and public and private 
groups to help make the VA better. My experience is that if we can 
partner early-on, we can improve the work process for a better result, 
rather than inspecting problems afterward.

    Question 16.  Do you believe the Department is appropriately 
structured to administer benefits and services? Do you believe VHA, 
VBA, and NCA are appropriately structured to accomplish their 
respective missions? If no, what steps would you take to evaluate and 
change the structure of the Department or Administrations?
    Response. While progress has been made in recent years in unifying 
VA, it's clear that much inefficiency and, perhaps, some aberrant 
behavior, exist because of the Balkanization of the Administrations. VA 
is the second largest Department in the government and the largest 
health care system in the country, so we must use our scale to our 
advantage. Operating as individual Administrations de-scales the 
organization, which leads to inefficiency. We need to focus on mining 
that scale, streamlining processes between Administrations and staff 
offices, and creating one organization with ``one team and one dream.'' 
In addition, VA may need increased legislative flexibility to help us 
flow resources to the work, which will free up resources and increase 
productivity to tackle the toughest problems. If confirmed, we will 
need to take a hard look at productivity within VA--across 
Administrations and business lines. An analysis and measure of 
productivity will help immensely with building capacity and 
strengthening the front lines of the Department to increase access.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                ------                                

    [A letter from the Office of Government Ethics follows:]

    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                ------                                

    [Letter from Robert A. McDonald to the Office of General 
Counsel, U.S. Department of Veterans Affairs:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




    Chairman Sanders. Well, thank you very much for your 
testimony.
    In a sense, I think you have answered my first question, 
but I am going to ask it again. You do not need this job. I do 
not think you are at the age in your career when you want to 
move up the career ladder. You do not need to add anything more 
to your resume. You have done pretty well.
    In the midst of all of these problems, in the midst of a 
dysfunctional U.S. Congress, in the midst of bitter 
partisanship, why do you want this job?
    Mr. McDonald. Thank you, Chairman Sanders, for the 
question. I think it is a good question and it is a question my 
family and I have talked a lot about. I desperately want this 
job because I think I can make a difference. I think that my 
entire career, whether it was starting at West Point, being in 
the 82nd Airborne Division, being at the Procter & Gamble 
Company, one of the most admired companies in the world, for 33 
years, has prepared me for this task.
    As I said in my prepared remarks, I think there is no 
higher calling, and this is an opportunity for me to make a 
difference in the lives of the veterans who I care so deeply 
about. If not me, who?
    Chairman Sanders. OK. Thank you for that response.
    One of the issues that we are all struggling with is VA 
health care, and I look at this issue a little bit differently 
than some of my colleagues, who seem to think in some cases 
that health care in this country is just fantastic and it is 
just the VA that seems to be having problems. The other point 
that I want to make is not just the size of the VA--six-and-
one-half million people coming in every year and inevitable 
problems that are going to occur--but the fact that because the 
VA is a public entity, and appropriately so, there is a lot 
more public attention to the problems facing the VA.
    I will give you an example. It was in the paper today, the 
Washington Post, Johns Hopkins University Hospital paid $190 
million to more than 7,000 women for inappropriate behavior on 
the part of a physician. It was an article in the Washington 
Post. If that happened at the VA, there would be a dozen 
hearings. There would be articles for months to come, all kinds 
of investigations. Johns Hopkins University is a great 
hospital. Problems happen.
    Now, the question I want to ask you is that a couple of 
weeks ago, I think, Senator Tester indicated--correct me if I 
am wrong, Jon--that in Montana alone, you are lacking some 20 
physicians----
    Senator Tester. That is correct.
    Chairman Sanders [continuing]. Just in the small State of 
Montana. I know in Vermont, we lack physicians. All over this 
country--in Phoenix, God knows how many physicians they lack.
    Now, in a nation in which 40 million people have no health 
insurance, a nation where we spend almost twice as much per 
capita on health care as any other Nation, a nation where 
45,000 people die because they do not get health care, now, how 
are you going to help us get the physicians that we need in the 
midst of a physician shortage, the nurses that we need in terms 
of nurse shortage, so that when people attempt to get into the 
VA, they do so in a timely manner, number 1, and they get high 
quality health care? How do you do that within a dysfunctional 
health care system nationally?
    Mr. McDonald. Well, Chairman Sanders, I think, first of 
all, it will start with us giving you very transparent 
projections as to what we think the demand is and how many 
resources we will need. We will have to build those from the 
bottom up, and I promise you that, if confirmed, I will be open 
and transparent with you as to what we think the need is.
    Second, we are going to have to restore the reputation of 
the VA. If anything, this crisis may have damaged the 
reputation of a great organization. We will have to restore 
that, and the way we do that is by acting quickly to make sure 
every veteran in need gets the care they deserve, and they can 
tell our positive stories for us.
    Third, we will have to do recruiting. At the Procter & 
Gamble Company--when you and I were together, we talked about 
this--we promote from within. I left the Army as a Captain. I 
went to the Procter & Gamble Company. I started at the bottom 
and worked my way up. We spend a lot of time on college 
campuses recruiting people. Last year, we had over a million 
applicants for fewer than 5,000 jobs. That is because people 
want those jobs. It is a company they want to work for. VA is a 
health care system that people want to work for. So, what I 
need to do is help recruit the very best people for that 
system.
    Chairman Sanders. All right. Will you go to the medical 
schools of this country?
    Mr. McDonald. Yes, sir.
    Chairman Sanders. And the nursing schools of this country 
in order to bring bright young people into the system so that 
our veterans get quality health care?
    Mr. McDonald. We have talked about the important role of 
leadership in changing culture. The fastest way for a leader to 
change the culture is through their own behavior. If recruiting 
is important, which I believe it is, because we have a shortage 
and we also have a time where the VA is in crisis, I think the 
leader has to play a role in recruiting those doctors and 
nurses and clinicians to help care for the veterans.
    Chairman Sanders. All right. My last question deals with 
technology. There is no question and, I think, no debate that 
VA has very outdated technology in terms of scheduling 
appointments and maybe in other areas, as well. What can you do 
to utilize the best technology to make the VA a more efficient 
and cost effective entity?
    Mr. McDonald. I think technology is a real enabler. I think 
it is a high-leverage activity that, as I said in my prepared 
remarks, would allow us to release some people and some 
resources and flow them to the mission, which is to care for 
veterans.
    My undergraduate degree is in engineering. I studied 
computer science at West Point, both hardware and software. I 
wrote an assembly program for the Honeywell computer at West 
Point that took it from Fortran to binary-coded decimal. At 
Procter & Gamble, I committed that we would become the most 
digitized company in the world, creating molecules digitally 
and shipping to our customers using digital technology.
    I think the same thing needs to be true for the VA. We need 
to use technology in order to free up people that we can move 
to taking care of veterans, and I plan to do that.
    Chairman Sanders. Good. Thank you. I have gone over my 
time.
    Mr. McDonald. Yes, sir.
    Chairman Sanders. Senator Burr.
    Senator Burr. Thank you, Mr. Chairman.
    Welcome, Mr. McDonald.
    Mr. McDonald. Thank you, Senator Burr.
    Senator Burr. We are truly grateful to you and to Diane and 
to your family for this.
    I want to start with a couple of housekeeping questions, if 
I can. As Ranking Member, part of my role is to conduct 
oversight with regard to VA activities. This often leads me or 
my staff to request information, statistics, briefings, or 
other materials from the VA. If confirmed, will you ensure that 
my staff and I will be provided with requested information in a 
timely fashion?
    Mr. McDonald. Senator Burr, as you and I talked when we 
were together, you are going to have my cell phone number. 
Every Member of the Committee will have my cell phone number. I 
would expect if we are not meeting your needs, you will call 
me. When you run a large corporation globally, you have a cell 
phone that is on 24 hours a day, 7 days a week, and it gets 
called. So, if you have concerns, I want to know about them and 
I want to react to them.
    Senator Burr. I thank you for that.
    If confirmed, will you be proactive in alerting this 
Committee, including both sides of the aisle, about significant 
issues involving the VA?
    Mr. McDonald. Yes, sir. I believe no leader can do a job 
this big by themselves. I need your help, if confirmed.
    Senator Burr. Bob, I had the opportunity to talk to Ken 
Langone this morning at length. He has got deep concerns that 
veterans' needs are not being met, and I think he chairs the 
New York Hospital, the Langone New York Hospital. He told me 
this morning that the medical staff there is the same medical 
staff that we use at the VA facility, that we actually leverage 
that medical staff to staff the VA facility. Is that a model 
that we could expand around the country and leverage for any 
shortages that exist? Is that a possibility?
    Mr. McDonald. From what I know, Ranking Member Burr, that 
is relatively common, and I think, from what I have read, two-
thirds of health care professionals in the United States have 
at least trained in a VA, if not actively involved today. So, 
that would certainly be something we would want to look at, 
particularly in a case where capacity is constrained and we 
need help.
    Senator Burr. Mr. McDonald, I have been told that in 2011, 
VA began an initiative called the Harmony Project, and this was 
to explore the pros and the cons of further integrating or 
merging the operations of the VA and the Department of Defense 
health care systems. I believe this effort resulted in a report 
suggesting that the agencies could improve access and 
continuity of care while saving billions of dollars annually. 
But, it is unclear to me whether the VA ever discussed the 
findings of that project with the Department of Defense and 
whether any action was ever taken on that report.
    I do not expect you to know anything about the Harmony 
Project, but can I get your commitment that you will go back 
and ask, was there a Harmony Project, that you will review the 
Harmony Project, and that you will provide the Committee with a 
copy of the conclusions of that project?
    Mr. McDonald. Yes, sir. I would certainly like to learn 
about it. Demonstrating my own commitment to the importance of 
the Department of Defense and Veterans Affairs working 
together, I had the opportunity to meet with Secretary Hagel. 
We had a great meeting. We both committed to a partnership, a 
partnership that Acting Secretary Gibson had also had with 
Secretary Hagel. We both agree that it should not be the 
veteran's fault or the servicemember's fault that there is a 
seam in the U.S. Government between the Department of Veterans 
Affairs and the Department of Defense. That should be 
absolutely seamless for those who have taken the oath and then 
become veterans. I pledge, and I know Secretary Hagel does the 
same, to make that as seamless as possible.
    Senator Burr. If I could also get your commitment to find 
out and report back to Congress or to the Committee on what, if 
any, interactions have taken place between the VA and the 
Department of Defense about the concepts highlighted in the 
Harmony Project.
    Mr. McDonald. Senator, I am not familiar with the project, 
so--but, we will certainly take a look at it and get back to 
you on what we think about the different items in the Harmony 
Report.
    Senator Burr. Great. I appreciate that.
    Mr. McDonald. Yes, sir.
    Senator Burr. I look forward to expediting the movement of 
your nomination.
    I thank the Chair.
    Chairman Sanders. Thank you, Senator Burr.
    Mr. McDonald. Thank you.
    Chairman Sanders. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Mr. McDonald, I was really troubled to hear Secretary 
Shinseki say that he felt like he was misled by VISN Directors 
and other senior VHA leaders. The Department just--they cannot 
function if the Secretary is not getting honest information 
from the field and taking appropriate action. If you are 
confirmed, how are you going to create a better team and build 
trust and transparency?
    Mr. McDonald. Senator Murray, I think that is an excellent 
question. On day one, what I have got to do is I have got to 
get out and I have got to meet as many employees as I can. I 
have got to understand how they think about their role in the 
Department.
    One of the things I pointed out is I think we have a pretty 
good Strategic Plan, when I looked at the Strategic Plan on the 
internet. Again, I am only looking at publicly available 
information. But, the behavior of every employee in the 
Department is not consistent with that Strategic Plan. We have 
got to develop a way to make sure that the behavior of every 
employee, that their expectation on their performance each year 
ties back to the Strategic Plan.
    Senator Murray. And, you do not think that was happening 
prior?
    Mr. McDonald. I do not want to judge, but I can tell you 
that at the Procter & Gamble Company, one of the things we work 
hard to do is to take our Strategic Plan and make sure that 
every low-ranking, that every employee in the entire company, 
if you rolled up their behavior every day, you would roll it up 
to that Strategic Plan.
    Senator Murray. Well, I agree with that, too, but what 
Secretary Shinseki was directly saying was that he was misled 
by people who were telling him what they thought maybe he 
wanted to hear rather than the actual truth. So, how do you 
build that trust to give you the information so that you can--
--
    Mr. McDonald. I have got to be out there with the people in 
the field, and we have got to have leaders who are vigilant, 
making sure that trust is real. It is unconscionable to me that 
you would have an organization where one of the stated values--
one of the stated values--the first stated value is integrity, 
yet you have people lying, and you have people tolerating it. 
The West Point Honor Code says, we do not lie, cheat, steal, 
and we do not tolerate people who do. You do not want people in 
your community lying. You do not tolerate them lying. So, we 
have got to get into this and understand it in greater depth.
    Senator Murray. OK. I appreciate that commitment.
    You know, I have talked with prior VA leaders about 
concerns at some of the facilities in my homestate of 
Washington. The VA's Access Audit flagged many of those 
facilities for some further investigation, and the most recent 
wait time and quality data that VA released show shortcomings 
at Washington medical facilities. I have raised, in particular, 
some real concerns about what is happening with the Spokane 
Medical Center, including whether staffing and budget 
shortfalls are hurting health care for veterans. If you are 
confirmed, how are you going to--not just specifically to 
Spokane, but how are you going to confirm oversight of these 
facilities and make sure that the resources are getting to the 
places where it is needed?
    Mr. McDonald. Well, I think that is part of the forecasting 
and projecting that I was talking about in conjunction with the 
Strategic Plan. What I heard from Secretary Gibson last week 
during his testimony was that the VA had not done a bottoms-up 
forecast before and that he was having some trouble getting 
that done.
    We have got to do a better job of that. We have got to be 
very open and transparent with all of you and all of our 
constituencies as to what we are forecasting, and then we have 
got to put the systems in place that can make sure our veterans 
are getting the appropriate care. We have got to be able to 
have the doctors, the nurses, the clinicians on the ground to 
be able to do that.
    I think digital technology will also play a role because it 
will help us. I know we have at the VA--VA is known for a very 
good Electronic Medical Record, and if we can get a scheduling 
system that is equally world class--and there is no reason we 
cannot--I think we will be able to use that to help us better 
care for the veterans.
    Senator Murray. OK. Really quickly, we have talked a lot 
about health care and wait times and everything else. I did 
want to ask you about the veterans' transition into civilian 
life. Many of them are using their G.I. education benefit. Back 
in 2012, I passed legislation to make sure that our veterans 
have the facts available to them so they can make informed 
decisions, so they are spending their G.I. Bill wisely. 
Recently, GAO found that schools may provide inaccurate or 
incomplete information to prospective student veterans and that 
the veterans themselves want independent, objective advice when 
it came to making their own education decisions.
    I know you are not in there yet, but one of the things I 
really hope you focus on is helping make sure that our veterans 
make good choices when they use those education dollars.
    Mr. McDonald. If confirmed, I will certainly focus on that. 
I, myself, am a beneficiary of the G.I. Bill. I did my graduate 
degree using the G.I. Bill when I was in the 82nd Airborne 
Division, the 18th Airborne Corps. My father was a G.I. Bill 
user, as well. The G.I. Bill is a very important part of the 
fabric of this country and we have got to make sure we keep it 
robust and with great integrity.
    Senator Murray. Thank you. Thank you very much. My time is 
up.
    Thank you very much, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Murray.
    Senator Isakson.
    Senator Isakson. Thank you, Mr. Chairman.
    Mr. McDonald, in your 90-day plan, you are going to travel 
the VA system and meet with providers within the VA, meet with 
veterans, and meet with stakeholders. When that is over, will 
you report back to us what you find and what you are going to 
do to correct what you find that you think is going wrong?
    Mr. McDonald. I would love to do that, Senator Isakson, 
because my ideas, as laid out in my opening statement, are 
based on publicly available information, and as I learn more, 
that will obviously be modified. So, I would love to report 
back to you as to what I saw and how that--how I would modify 
the indicated actions going forward.
    Senator Isakson. Well, your answer is really perfect, 
because all the discoveries we have made, beginning with 
Phoenix but going to other facilities in the country, have been 
information that was not publicly available and we had to dig 
it out. It took whistleblowers to actually bring it forward to 
us, which reflects the culture within the VA system right now, 
which is an insular, protective culture that you have got to 
open up. There are only two motivators in running a business. 
One is fear and the other is reward, and the reward is not 
necessarily your compensation, but the fact that you are doing 
a good job. I hope you will give us a game plan, make it 
public, and make the VA employees know that you are just not 
passing through and we are not just passing through, but we are 
going to insist on accountability.
    Mr. McDonald. I could not agree with you more. For an 
organization to succeed, it has to learn; and, for an 
organization to learn, people have to be willing to admit when 
things go wrong. The Army calls it an after-action review. We 
tried to do the same thing at the Procter & Gamble Company. In 
a large organization, if something goes wrong, or if something 
goes right, you need to learn from it. You need to document it 
and then you need to share it through the organization so it 
does not happen again.
    In an insular culture, you are not getting bad news being 
brought forward. You are not correcting mistakes and everything 
becomes a one-off. That is why we are seeing so many reports. 
It seems like there is a different report every day from a 
different location somewhere in the country. We have got to 
create a learning organization.
    Senator Isakson. In your testimony, you mention creating a 
Physician Advisory Board. Do you contemplate those physicians 
being only VA physicians, or do you contemplate having some 
outside physicians giving eyes on the system?
    Mr. McDonald. Well, I would--my initial thought would be to 
get the very best medical talent in the world. I have been very 
heartened by the number of people who have come forward to me 
and said that they would like to participate, that they would 
like to help. I think the greatest thing about this nomination 
at this moment in time is there is no question about the 
mission, about caring for veterans. There is no question about 
that. There is an unusual coming together of everyone in this 
country to take care of those veterans. So, I have gotten a lot 
of offers already to help. I would like to have the very best 
medical minds that we can find, inside the VA and outside the 
VA.
    Senator Isakson. Well, I think you have discovered what I 
have found in my travels over the past 6 months dealing with 
this issue, and that is there are a lot of people who want to 
help and there is a lot of help out there. There is an example 
in Atlanta, GA, today. The Shepherd Spinal Center, which is 
recognized as one of the finest spinal centers in the world, 
tried for years to get the VA to cooperate to let them take 
some of their patients and finally cracked into it last year. 
Now they are taking veterans voluntarily and raising the money 
to do it, taking spinal cord injury VA patients and some PTSD 
and TBI patients who the VA had given the maximum amount of 
treatment to and still could not cure. So, I think the more we 
open the door and make the VA accessible to the private sector 
providers, many of them are veterans themselves--the better the 
VA will be, because there will be support from the outside.
    Mr. McDonald. Well, the VA is a great institution and has 
led innovation in so many areas and does so many unique things 
that I do not think could be done as well by the private 
sector. Nevertheless, any organization like the VA needs to 
benchmark itself consistently against activities elsewhere to 
become better. The Procter & Gamble Company, we benchmark 
ourselves against the very best companies in the world in order 
to make ourselves better, and I think we at the VA would need 
to do that, too, if I am confirmed.
    Senator Isakson. Well, thank you for your service to the 
country and thank you for your willingness to accept this job.
    Mr. McDonald. Thank you, Senator Isakson.
    Chairman Sanders. Thank you, Senator Isakson.
    Senator Tester.
    Senator Tester. Well, thank you, Mr. Chairman, and I want 
to thank you once again, Bob, for being willing to take this 
job.
    I do not know if you have thought about what you are going 
to do on your first day. You mentioned in your testimony about 
the 90 days and you are going to take a set of immediate 
actions to reform the VA. But, what is on the very top of your 
list?
    Mr. McDonald. The very top on my list is getting the 
leadership and the entire organization together and sharing 
with them what I plan to do and how important to me the mission 
and the values of the organization are and how unacceptable it 
is to behave in a way that is inconsistent with the mission and 
the values. That is what I am going to try to do on day one.
    Senator Tester. OK. So, you talked about in your testimony 
the fact that leadership betrayed the trust of the veteran, and 
I know you talked about leading by example. Is there anything 
else you can do to restore trust by the veterans to the VA 
again?
    Mr. McDonald. Well, I plan to--I have already made calls to 
the Veterans Service Organizations----
    Senator Tester. Yes.
    Mr. McDonald [continuing]. And have talked to other 
veterans. What I would like to do as I travel is to get 
together with the Veterans Service Organizations and veterans 
around the country and listen to their concerns. But, I want to 
do that as a veteran.
    Senator Tester. Yes.
    Mr. McDonald. I want to do that as one of them.
    Senator Tester. Right.
    Mr. McDonald. I do not want to do that as a Secretary with 
an entourage.
    Senator Tester. OK. Good. I want to talk a little bit about 
perception. You said that you have gotten health care from the 
VA in the past, is that correct?
    Mr. McDonald. My family has. I have not personally.
    Senator Tester. OK. So, your family has. This could still 
apply. Has your perception of VA changed over the last 30-some 
years?
    Mr. McDonald. My father-in-law, before he passed away, 
suffered tremendous mistreatment as a POW and he loved the VA. 
He loved going to meet with his fellow POWs and he very much 
benefited from that.
    My uncle, who suffered from the effects of Agent Orange and 
still is under the care of the VA, speaks very highly of the 
VA. His personal experiences have all been very positive.
    Senator Tester. OK. Good. Since you have become the 
nominee, you have gotten information. Has anything changed with 
your perception of the VA in the last, what, month, 3 weeks?
    Mr. McDonald. I--when you run a large organization, there 
are always things that go wrong, and my--the people I have met 
seem very dedicated----
    Senator Tester. Good.
    Mr. McDonald [continuing]. To the mission and the core 
values.
    Senator Tester. That is good.
    Mr. McDonald. But, what we have got to do is figure out who 
was not.
    Senator Tester. Right. The big issue that most people are 
talking about now is access, because once the folks get through 
the door, 90 percent of them think the health care is pretty 
darn good.
    Mr. McDonald. Yes.
    Senator Tester. There is another issue out there that is 
big in the VA and that is mental health. The signature injuries 
coming out of Iraq and now Afghanistan all deal with PTSD--I 
should not say all deal, but the majority is PTSD. We have a 
shortage of providers in the VA. There is no ifs, ands, or buts 
about that. And, there is also a big shortage in the private 
sector. How are you going to solve that problem, because it is 
a problem that is not going to go away, and it is a problem 
that if we get help to the veterans early, we will have a much 
higher success rate.
    Mr. McDonald. Senator Tester, I agree with your comment. I 
think it is a great comment, which is we do have an issue on 
mental health, not just in the VA, but in the country. What we 
have got to do is we have got to find ways to meet this need. 
It is one of the most pressing needs that we have within the VA 
and one of the most pressing needs within the country.
    I think partnerships may be one way to look at it. I think, 
certainly--and this is a longer-term solution, but talking to 
people interested in careers. This is a great career for 
someone. To be able to make a difference in the life of another 
person through effective mental health care is fantastic. But, 
we do need more. We do need more.
    Senator Tester. OK. Last question. We have got a Conference 
Committee going on right now. The major cost of those bills 
deals with outsourcing health care to the private sector. It 
costs more money. I think Sloan Gibson said last week it costs 
more to go private than what the VA can provide. It costs 
money. I think the hitch with the whole Conference Committee 
right now is where we are going to get the money. It is an 
emergency situation, I believe. It is a cost of war. That 
aside, what is your number 1 priority to come out of that 
Conference Committee?
    Mr. McDonald. Again, I am dealing with publicly available 
information, but I--having known Sloan Gibson for over 40 
years, having gone to West Point together and served together 
there, and then in the military, I trust what he has to say. I 
think he has talked about the resourcing needs that we have----
    Senator Tester. Yes.
    Mr. McDonald [continuing]. And that is all about access.
    Senator Tester. OK. Thank you. Thank you, Bob.
    Mr. McDonald. Thank you.
    Senator Tester. I appreciate your time.
    Chairman Sanders. Thank you, Senator Tester.
    Senator Heller.
    Senator Heller. Mr. Chairman, thank you.
    Mr. McDonald, again, thank you for being here and----
    Mr. McDonald. Thank you, Senator.
    Senator Heller. I do not think there is any secret that my 
priority on this Committee is addressing the VA claims backlog, 
especially in light of the fact that Nevada has the worst 
backlog in the country. Unfortunately, the VA continues to 
provide us a very rosy picture of how it has reduced the claims 
backlog, and I want to assure you that this depiction is false.
    Last Monday, the IG released a report about how the VA's 2-
year claims initiative led to inaccurate processing, in part 
due to the VA employees feeling pressured to complete claims in 
a short timeframe. So, nationwide--and I want to go nationwide 
first and then a little locally--nationwide, 32 percent of the 
claims reviewed had errors. Some claims were denied without 
waiting for evidence needed to decide the claim, and some 
claims were filed without a final decision; some claims without 
a final decision were counted as closed.
    So, my question for you, Mr. McDonald, is do you think it 
is responsible for the VA to continue to tout progress in light 
of this IG report?
    Mr. McDonald. Well, I think we have got to improve the 
claims backlog, and I read the report that the working group 
put together, which you shared with me, and I am thankful for 
that, but I am also embarrassed for the organization that you 
had to go do that work. We have got to get ahead of this claims 
backlog and we have got to find a way to get it down and get it 
down quickly so that the veterans are getting the care they 
deserve.
    Senator Heller. If I can get a commitment from you that you 
will review the entire claims process and whether management 
has tried to manipulate these numbers----
    Mr. McDonald. Oh, absolutely. One of the things that I am 
trained in is something called Lean Six Sigma, total quality, 
where there is a technique taught by W. Edwards Deming where 
you take a look at a work process and you work to find out 
where the constraints are. You streamline that process. 
Certainly, given the challenges with the claims process and the 
backlog, that will be one of my first jobs, is to take a look 
at that.
    Senator Heller. To get down a little bit more locally, 
there was an IG report recently of the VA Regional Office in 
Reno, and that inspection found that 51 percent of the claims 
reviewed were inaccurate and that management has contributed--
was contributing to inaccuracy and other problems in the VARO. 
Many months ago, I was promised by your predecessor, or will-be 
predecessor, there would be changes at this particular Regional 
Office. I, personally, have called for new leadership. If 
confirmed, can you commit to reviewing the management of each 
of the VA Regional Offices, including that in Reno?
    Mr. McDonald. Certainly, I will. One of the first tasks of 
a leader, and I think I wrote this in my prepared submission, 
is to get the right people on the bus and get them in the right 
seats on the bus; and I do not care who the Fortune 500 CEO you 
talk to is, they will tell you it took them too long. It always 
takes you too long to get the right leadership team in place, 
but it is the first priority. So, we will be taking a look at 
that.
    Senator Heller. I think you just answered my question, but 
I will be very clear. Are you willing to make leadership 
changes where they are necessary?
    Mr. McDonald. I have done that throughout all of my 
careers, beginning in the U.S. Army.
    Senator Heller. OK. That completes my questions. Thank you 
very much.
    Mr. McDonald. Thank you, Senator Heller.
    Senator Heller. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Heller.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    We have heard my colleagues, we have heard the media around 
the country, very critical of the VA, in many cases deserved. 
We have also seen some of this criticism directed at VA 
employees generally, and I think it is important, and I know 
you are going to be dealing with some very serious morale 
issues. We had terrible morale problems at the Dayton VA, as 
you and I talked about. That has improved dramatically because 
of some decisions VA made.
    I want to always point out that 30 percent of the VA 
employees are veterans and close to 100 percent of VA employees 
chose to serve veterans, and how important morale is and how 
important it is that we recognize that most of those employees 
are doing a good job. I know you understand that.
    Let me ask a couple of questions on a number of things. I 
had high regard for General Shinseki, your predecessor. He had 
three things that he was working on that I wanted to ask if you 
plan to continue. He identified and self-imposed a plan for 
ending the backlog, an issue that everybody on this Committee 
in both parties has spoken out on. We have seen major 
improvements there. He worked hard on reducing veterans' 
homelessness, especially highlighting one of the VA's that are 
considered some of the best in the country, like Chillicothe, 
OH, in meeting the unique needs of women veterans.
    I just wanted to ask you if you will, from what you know 
from public documents, if you plan to continue his efforts on 
those three pretty broad issues.
    Mr. McDonald. I do, Senator Brown. In fact, as I was 
reviewing the Strategic Plan, I noticed that the agency 
priority goals are two of the three things you mentioned. I 
know that one of the chronic target groups of homeless is 
women. So, I absolutely will continue work on those three areas 
that you outlined.
    Senator Brown. OK. Thank you. The VA conducts millions of 
appointments each year. I talked about it in my introduction 
with Senator Portman of you. It is six-and-one-half million 
veterans, 85 million appointments. Some of those, obviously, 
are conducted by third-party and private providers. I hear from 
these groups about VA delays in payments for these services. 
Sometimes, they go for as long as a year. I just wanted to ask 
you to commit to dealing with prompt payment and working on 
this issue on behalf of veterans affecting those health care 
delivery people and institutions outside of the VA.
    Mr. McDonald. Yes.
    Senator Brown. OK. Thank you.
    Mr. McDonald. Prompt payment.
    Senator Brown. Last is one that is a little further afield 
that you and I talked briefly about in my office on your first 
visit, and that is legislation that I have worked on called the 
Significant Event Tracker, where a number of soldiers in combat 
will get head injuries, minor head injuries. The Marine or the 
Ranger may say, ``I got my bell rung.'' It is not recorded 
anywhere. A soldier gets four or five of these in the space of 
a year in combat, or a space of two or three tours of duty.
    Six years later, his behavior begins to change. His kids 
notice it. He has no documentation of it. They go to the VA, 
making it hard to diagnose because they do not have them on 
records. It makes it more difficult for the VA when this 
soldier or this veteran files for disability; oftentimes, it is 
difficult to put together what happened, therefore increasing 
the backlog, delaying it when the VA does not have that 
information available.
    Whether this legislation passes or not, our Significant 
Event Tracker bill, will you commit to work with the Department 
of Defense so that they keep better records on these so-called 
invisible minor injuries, but injuries that have a long-term 
effect--taken together, have a long-term effect on that 
soldier's behavior?
    Mr. McDonald. Yes. I think that is a really important idea, 
Senator Brown. Secretary Hagel and I discussed that, and I 
think, if anything, this really shows why we need a VA, because 
the VA and the DOD working together can do this and are going 
to be on the forefront in the innovation of mental health as it 
deals with these significant events that occur. So, we have got 
to do that, but we have got to find a way to do it. It is going 
to be all new. It is going to be innovative and it is going to 
be something that has never been done before, but it has got to 
be done.
    Senator Brown. The burden rests way more with DOD than it 
does the VA, but you are urging the DOD to do it, just like 
trying to eliminate what you called a seam, which Senator 
Murray and I are saying is almost a wall between the soldier 
and the VA----
    Mr. McDonald. Right.
    Senator Brown [continuing]. And how that is so important, 
to smooth that over.
    Mr. McDonald. Well, we will own the outcome, you know, as 
they are a veteran, and understanding that outcome and being 
able to trace that back to those significant events that 
occurred that created the head injury is going to be critical. 
So, I think it is very important that we work hard on that.
    Senator Brown. Thank you, Mr. McDonald.
    Mr. McDonald. Thank you.
    Senator Brown. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Brown.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and again, thank 
you so much for being here, Mr. McDonald.
    Usually, when I am interviewed by the press, it is a pretty 
extensive interview with whatever the subject, and at the end 
of the interview they always say, is there anything that I have 
left out? Is there any question that I have not asked? I will 
usually reply, no, I think that is every possible question; I 
think you are about at that point right now. I just want to say 
that I am very, very impressed with the answers that you have 
given.
    I do not think it is fair to get too specific with you in 
the sense, you know, you are in the position that you are just 
getting your feet wet, but in talking about process, in talking 
about your approach to how you are going to solve problems, I 
think that is excellent.
    I would like to mention just a couple things that are 
important that, again, I do not want to get into the weeds with 
you at all, but a couple things that are on my mind. One of 
them is the fact that, right now, when a veteran goes to his 
Medicare doctor, he sees his Medicare doctor, gets a 
prescription. In order to get that prescription filled at a VA 
pharmacy, which is a pretty good deal for the veteran, he has 
to go see a VA doctor, which makes no sense at all, to me. So, 
I would like for you to just think about that in the future.
    Scheduling is a huge problem. You mentioned getting some of 
the best providers and visiting with them. Certainly, the 
schedulers, the administrative people would be good to review 
along the same line. That really is the backbone of health care 
or, really, whatever you are looking at. You know that better 
than I do.
    Suicide, prescription drug prescribing, I think there is 
too much of that, not prescription drugs, but the scheduled 
drugs. We put tremendous pressure on the VA to get rid of their 
backlogs specifically. You know, these things wax and wane. 
But, in treating our veterans that have issues, there has been 
a lot of pressure to get that solved, to eliminate the backlog 
there. The easiest thing to do is to prescribe a drug, you 
know, rather than really working through the problem. Then, 
again, the prescription drug abuse, that there is so much of 
this stuff out on the street that it is actually--when I am 
visiting with my State's sheriffs, they talk about veterans 
diverting that and actually selling it as a way to supplement 
their income.
    The other thing that I would like a commitment from you is 
one of the things that really frustrates the Committee, and as 
you are seeing, the Committee really is a very bipartisan 
entity. When it comes to veterans, Congress works very, very 
well together, whether it is in the Senate or the House, 
Republicans and Democrats.
    But, one of the most frustrating things that we run across 
is trying to get information and then not being able to get 
that information in a timely way, to be stonewalled.
    I think you will find that the Committee really does want 
to help you, you know, as we go forward.
    But, I would like for you to commit that when we do ask for 
things, that our request is honored, that this is a--that we 
have oversight, recognizing that fact, and that you will try 
to--I know that you will try to create a good relationship 
between the Committees, but I think waiting on data is probably 
one of the most important things and that is one of the most 
frustrating things that we run against, so----
    Mr. McDonald. It is certainly my intention, Senator 
Boozman, to be responsive to whatever questions or demands that 
you may have. I realize the role you have in oversight, and I 
also realize that you have got people in your State who have 
needs, and it is going to be our responsibility to try to help 
you meet those needs. I will plan, if confirmed, to give every 
Member of the Committee my cell phone number and I will expect 
you to use it; call me when you have a concern and we will try 
to deal with it together.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Boozman.
    Senator Hirono.
    Senator Hirono. Thank you. I think you are probably the 
first person to give all of us your cell phone number, so I 
hope this is not a situation where, be careful what you ask 
for. Be that as it may----
    Mr. McDonald. I mean it, Senator Hirono.
    Senator Hirono. Thank you. We appreciate it.
    I am glad that Senator Brown brought up the question of the 
significant events that occur to our enlisted people, our 
soldiers, that never gets into their records, because I have 
heard of veterans who, as they are trying to make their claims 
with VA, they are not able to get the information to back up 
those claims, which leads me to ask you, when General Gates and 
Secretary Shinseki were leading the DOD and VA, respectively, 
they talked about seamless records so that the records follow 
the person, the individual. Yet, here we are. We still do not 
have the compatible systems.
    Is this something that you would pursue so that when our 
people leave active service and become veterans, that their 
records are with them, that it follows them? Apparently, this 
requires some kind of a huge computer change that we have not 
been able to achieve, even if a lot of money has already been 
spent. Would you pursue this course?
    Mr. McDonald. Yes, Senator Hirono. As I said, I really 
think it is important that the DOD and the VA operate 
seamlessly. It is not the veteran's fault that there is a 
boundary between those two organizations and we need to operate 
seamlessly. When I met with Secretary Hagel, he had the exact 
same interest that I do. In fact, he asked for the meeting, 
which I thought was an incredibly gracious thing for him to do, 
since I am only a nominee, and I think that recognizes how well 
we can work together to get these things done.
    I know progress has been made on the record 
interoperability between the two organizations, but more 
progress needs to be made.
    Senator Hirono. Well, apparently, there are some tremendous 
difficulties in getting this done, because 6 years later, lots 
of money, it is still not happening. So, we are going to follow 
up with you--I certainly intend to--as to how you are getting 
along with that.
    You mentioned in your testimony that the VA operates as 
loosely connected individual administrations. So, various 
decisions are being made at the local/State level, perhaps, and 
there is not a particular compatibility or procedures that are 
being utilized that would enable you to decide or compare what 
is going on in the VA in one State versus another State.
    So, in a situation like that, how would you address the 
fact that across the VA system there are systemic problems? It 
will be difficult to address when there are multiple 
organizational management structures in place.
    Mr. McDonald. I think you are right and I think your 
question is insightful, because any large organization needs to 
operate with one team and one dream. You cannot have separate 
organizations going different directions. A lot of thought is 
put into how do you break down boundaries in an organization. 
My experience over the last 40 years has been that if there is 
a problem in an organization, it typically occurs at a 
boundary, and how do you make those boundaries permeable so 
that resources, information, can flow between those boundaries?
    One of the ways we have to do that is by putting in place 
systems that will work so that we get predictably good results 
every time something happens. The scheduling system is an 
example. But, the other thing that that does is it allows you 
to flow resources across the boundary so that each individual 
entity is not asking for more resources when, in fact, the 
resources may exist somewhere else and we need to flow them 
there.
    A good example of that is the migration that is currently 
occurring of veterans. Veterans who are returning to this 
country are migrating to different places than you may have 
expected. So, we are going to have to be flexible enough to 
make sure our care follows that migration.
    Senator Hirono. I think when you are dealing with a huge 
system like the VA system, you are going to get a lot of push-
back from people who are used to being left alone in their 
regions or whatever the grouping is. So, I wish you the best in 
making sure that we really are working with a system that 
responds in the way that it should.
    Mr. McDonald. Thank you, Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Hirono.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Mr. McDonald, thank you very much for your presence today. 
Thank you for your willingness to serve as the Secretary of 
Veterans Affairs.
    As I indicated in our conversation, I hope you will 
consider me and other Members of this Committee allies as you 
try to develop a strategy and implement that strategy which 
benefits those who have served our country.
    I want to talk broadly for a moment, and then bring Kansas 
into the topic of conversation. First of all, in the hearing 
that was held in May, we had most of the Veterans Service 
Organizations testifying, and I think, without exception, those 
are organizations that have consistently requested additional 
resources from Congress to support the activities of the 
Department of Veterans Affairs.
    But, my summary of their testimony was that each and every 
organization, those seven VSOs, all testified that, in the 
past, while there is additional money going to the Department 
of Veterans Affairs, in fact, the President indicated earlier 
this year that during his time in office, the Department of 
Veterans Affairs has been more resourced, was his words, more 
resourced than other agency or department in his 
administration.
    So, the point that the VSOs made is, yes, we probably could 
use additional resources at the Department of Veterans Affairs, 
but without exception, it seemed to me their testimony was, but 
the money is going in the wrong place. It does not result in 
better care. It does not result in more providers. In fact, it 
results in more paperwork, and bureaucracy that our veterans 
encounter in dealing with the VA.
    So, as we have conversations about more money, when you 
make a budget request from the Department of Veterans Affairs, 
we need to make certain that this is not about expanding the 
number of people. In fact, I am told within VHA's headquarters, 
in the 1990s, there were 800 people who worked there. That 
number is now 11,000. The focus has to be on the people who 
provide patient care, not the folks who get in the way of that 
patient care.
    I indicated to you in our conversation that what I am 
looking for is somebody who can rebuild the trust that 
certainly I want to have in the Department of Veterans Affairs, 
but more importantly, what our veterans deserve to have in a 
department created for their benefit, and I look forward to 
working with you to accomplish that.
    Let me turn specifically to Kansas, and I want to highlight 
for you how rural our State is. I served in the House of 
Representatives representing a Congressional District of our 
State that is larger than the State of Illinois. No VA hospital 
in that Congressional District. Yet, we need to continue to 
work to provide services to folks who do not happen to live 
anyplace close to where there is a VA hospital.
    Over the course of my time in Congress working with the 
Department of Veterans Affairs--nine Secretaries--we have had 
outpatient clinics. That has helped. But, if you live 4 or 5 
hours from a VA hospital, how do you get there, particularly if 
you are a 92-year-old World War II veteran----
    Mr. McDonald. Mm-hmm.
    Senator Moran. But, if you are a 92-year-old World War II 
veteran and you live two-and-one-half hours from the outpatient 
clinic, it does not really make that much difference that you 
are 2 hours closer to a facility if you cannot get there 
anyway.
    So, one of the things I am pleased about in the legislation 
that is now pending, which I hope that the Conference Committee 
reaches a result and we come back and vote on the Senate and 
House floors about this legislation is the idea if you live 
long distances from a VA facility, that the VA will provide 
that care for you. The VA today has the ability to do that. 
They have the ability to pay for outside services. They are 
seemingly reluctant and often unwilling to do so. You need to 
understand that when the VA fails to provide those fee-for-
services to those veterans, most likely what happens is that 
veteran gets no service at all.
    In fact, in my hometown of Plainville--I am sorry. My 
hometown is Plainville, but 23 miles away is Hays, where we 
were successful in opening an outpatient clinic. The VA 
reported to me they would expect 1,100 veterans from Northwest 
Kansas to access care there, because that is 1,100 who were 
somehow making their way to Wichita. This would be closer. The 
end result was we had 2,200, double the amount that was said. 
The doubling amount occurred because prior to that, those 
veterans were receiving no care.
    So, I look forward to my opportunity in the time that you 
are Secretary and I am a member of the U.S. Senate, a Member of 
this Committee, to help explain the challenges that we face in 
a rural State like ours.
    One of my ongoing complaints with the Department of 
Veterans Affairs that I would love for you to solve is we have 
an outpatient clinic in Liberal, KS, that has not had a 
physician in its employ for more than 3 years. While I have 
raised this issue with the Department of Veterans Affairs over 
that period of time, the problem I have is that they--while I 
understand it is difficult to recruit and retain physicians in 
rural America--there has been no plan to fix the problem. We 
need a plan. We want to help you implement it. I want to be an 
advocate for all veterans, but I also want to bring home to you 
the unique nature of places like my homestate.
    Thank you, Mr. Secretary.
    Mr. McDonald. Thank you, Senator.
    Senator Moran. Mr. Secretary-to-be.
    Mr. McDonald. As you said, I think it is all about the 
mission, which is care for the veterans, and we have to look at 
all these decisions through that lens and try to get access for 
the people in rural America.
    Chairman Sanders. Thank you, Senator Moran.
    Senator Rockefeller.
    Senator Rockefeller. Mr. McDonald, you have done a terrific 
job here today.
    You have a variety of tests that have not surfaced to this 
point within the workings of the Congress and the U.S. 
Government. It always has been, and I assume still is, that 
when you give testimony--you are giving a different kind, when 
you answer questions, it is a little bit different--but, when 
you give testimony, or your people at a higher level give 
testimony to this Committee or to any other committee in 
Congress, it has to be approved. It has to be approved before 
it can be given by the Office of Management and Budget. That is 
a restraint, because what the White House is saying to you, you 
go ahead and say what you want, but it has got to be within our 
parameters.
    I do not have any fear in your case, because the Veterans 
Administration, the deficiencies and the need for money and all 
the rest of it is so apparent that I think that your road will 
be easier on that account, but that is a restraint. It is an 
unknown restraint to most of the American people, but it is a 
restraint.
    Second, you will find that we in the Congress are 
terrifically skillful at finding problems, things which we 
think have gone wrong in your agency, and then we just want 
those problems fixed. The press is always available and people 
use the press very liberally, often to make criticisms which 
they, themselves, are not willing to step up to the plate to 
solve.
    You have talked a lot here about accountability. I think it 
is part of your responsibility, and I am not sure exactly what 
I mean when I say this because I am not sure how you would do 
it, but that you can find ways. People here say, well, you 
know, let us just not throw a lot more money at that problem. 
There are plenty of resources in the VA. You just shift people 
around. You helped that a little bit when you talked about, 
well, you take some of your IT people and put over into other 
positions.
    But, the fact of the matter is, the problems are the 
enormous boundary and growth yet to be seen of people who are 
seeking help from the VA with a whole series of new problems to 
the VA system. Part of accountability is you being frank with 
us when we are not giving you what you need to do the job. You 
cannot allow us to sit here and say that there is plenty of 
money available, it is just a question of shifting resources 
around, when you know perfectly well that if you are going to 
go out and hire the right kind of nurses and doctors and do 
experimental work, one of which you and I discussed when we 
met, which has profound PTSD solution potential, all that costs 
money. All that costs money.
    This Congress is sort of divided into (1) people who want 
to spend money and think that you need to spend money when you 
have a particular problem, which there can be no problem more 
dramatic than that of the veteran, and (2) those who would say 
there is no problem more dramatic than the problem of the 
veteran but do not want to spend money to do anything about it. 
It is a matter either of ideology or theology or of fear or 
leadership dicta or whatever.
    But, boy, does that hit you in the face. You get in, you 
start making changes, then all of a sudden, your budget--as the 
President said, the VA has done better than any other 
institution in getting money, but that is still not saying very 
much. We have shut the government down here. We have got 
sequestration. We have a ``do not spend'' philosophy. If you 
spend, you will be labeled a big spender and then you will lose 
your next election--and the Tea Party and all the rest of it.
    So, I am just saying that, as a friend to you, when people 
here say they are going to be your ally, make sure they really 
are and make sure that they are doing for you what they should 
be doing for you. That is the accountability that we owe 
ourselves and which I hope that you will exercise on us.
    This is not an easy system and we are not an easy group to 
deal with; it is easy to talk and complain, hard to solve 
problems. I think you are a problem solver. I welcome that. I 
think you are going to be a superb Secretary. But, be very 
frank and tough with us, too.
    Mr. McDonald. Thank you very much, Senator Rockefeller. I 
do plan on it being a two-way partnership, and when I give you 
my cell phone number, I want yours at the same time. 
[Laughter.]
    Chairman Sanders. Thank you, Senator Rockefeller.
    Senator Blumenthal.
    Senator Blumenthal. Thanks, Mr. Chairman.
    You can have my cell phone number, for what it is worth. It 
is not worth as much as Senator Rockefeller's, but----
    [Laughter.]
    Senator Blumenthal. I, again, thank you for being here, and 
thanks for answering all our questions as well as you have, 
forthrightly and candidly.
    In my initial statement, I raised the specter of the VA as 
comparable to a bankrupt corporation. Unlike a lot of bankrupt 
corporations, or at least corporations that fold, the VA has a 
lot of assets. One of its very distinct assets is its very 
dedicated people, its trained professionals who do such great 
work day in and day out, regardless of the headlines in the 
paper and the disparagement that they may see in the Congress.
    We see it in Connecticut. We have a lot of great doctors 
and medical care in Connecticut, most especially at the West 
Haven VA facility, which is our main hospital. So, my question 
is, what can we do to attract more of those trained 
professionals to the VA facility in Connecticut and others 
sites around the country which really provide the day-to-day 
care for our Nation's heroes?
    Mr. McDonald. I think that is a great question, Senator 
Blumenthal. I have been thinking a lot about this, knowing the 
shortage that we have, and also the morale of the organization, 
which may not be very high right now. It dawns on me that 
health care professionals, like the rest of us, want to make a 
difference in the lives of others and they want to be on the 
cutting edge of making a difference.
    So, if we are going to start, for example, correlating Post 
Traumatic Stress Syndrome with events that occurred during the 
military experience, that is cutting-edge stuff. That is new 
stuff. That is stuff that nobody has done before. I mean, the 
VA has had three Nobel Prize winners. That is the kind of thing 
that, I would think, health career professionals want to be a 
part of.
    So, it would be my intention that we really tout that 
innovative capability that the VA has had for years, but really 
bring it out and use that to recruit the very best people who 
want to make a big difference in others' lives.
    Senator Blumenthal. In the West Haven facility, as I 
believe I told you when we met, I have asked for site-specific 
information relating the audit that was done, in fact, led a 
letter from our delegation asking General Shinseki for that 
site-specific audit data relating to all the locations in 
Connecticut, and I am referring to the audit that was done 
during the spring, not the wait-time data. I would like a 
commitment from you that I will receive a response to that 
letter.
    Mr. McDonald. We will respond to the letter, Senator 
Blumenthal.
    Senator Blumenthal. I would like your commitment, also, 
that you will respond to a letter that I recently--more 
recently--wrote to the Deputy or Acting Secretary of the VA 
asking for an explanation for the apparent tripling in wait 
times in Connecticut and, in fact, elsewhere around the 
country, the increase in wait times and those wait times 
delayed longer than 30 days that seem to have tripled in 
Connecticut, quadrupled elsewhere. Will you commit to me that 
you will provide a response to that letter?
    Mr. McDonald. If confirmed, I will provide a response, but 
knowing Sloan Gibson the way I do, you will get a response.
    Senator Blumenthal. I am hoping that response will be 
imminent, not sometime in the indefinite future.
    Mr. McDonald. That is my hope, as well.
    Senator Blumenthal. Thank you. The other area that is of 
grave concern to me relating specifically to Connecticut is 
care for women veterans. I hope that will be a priority for you 
and that you can commit that women's care for veterans at the 
VA facility in New Haven, whether it is the result of trauma 
connected to sexual assault or a battlefield PTS, will be a 
priority for you.
    Mr. McDonald. It is a priority and it is a growing 
priority. The number of women going into combat, coming out of 
combat, becoming veterans, is growing. This is something we 
have got to get ahead of.
    Senator Blumenthal. Again, relating to Connecticut, a great 
many of our veterans have been victims of predatory schemes or 
practices on the part of for-profit colleges or others relating 
to educational benefits. Ultimately, the victims are not just 
those veterans, but also taxpayers, because it is taxpayer 
money that often is lost. Will you commit to make correction of 
those kinds of abuses a priority?
    Mr. McDonald. I have read some of the newspaper articles 
and reports on that. I am dealing with the publicly available 
information, since I am not confirmed, and we will get into 
that and understand it. I mean, it is unconscionable that 
someone would be taking advantage of our veterans.
    Senator Blumenthal. Finally, with respect to the criminal 
investigation that is ongoing, a criminal investigation that I 
asked the Department of Justice to begin, I would like your 
commitment that you will assist and support that investigation 
to hold accountable anybody in the VA who has committed fraud 
or destroyed documents or illegally manipulated documents so as 
to lie to General Shinseki and to the American public.
    Mr. McDonald. Yes, sir. As I said, the number 1 value, core 
value of the organization is integrity. So, we have got to root 
out when that is not upheld.
    Senator Blumenthal. Thank you very much.
    Mr. McDonald. Yes, sir.
    Senator Blumenthal. Thanks, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Blumenthal.
    Senator Begich.
    Senator Begich. Thank you very much, Mr. Chairman.
    Again, Mr. McDonald, thank you very much for being here.
    I would be remiss if I did not first brag about my State 
and invite you to it. As a Senator from Alaska, we have 
attempted to look at this problem--it is complex in a lot of 
ways. It is not only a health care delivery system, but handles 
disability claims, G.I. benefits, basic care services; I mean, 
it is this laundry list of services. As I said earlier in my 
opening, we sought to reshape what we were doing in the VA, so 
now we have in Alaska 26 agreements with Tribes that deliver 
health care all over Alaska. We did not need legislation. We 
offered legislation, but we worked then with the Administration 
to figure this out. The former Secretary was bold about it and 
kind of went on the cutting edge--I will use your words--that 
cutting edge element. Now I think we are starting to do some 
incredible things with delivering services wherever veterans 
are, and then the VA reimburses the Indian Health Services 
folks in regards to the delivery of the service.
    Along with that, we are now starting to utilize our 
Federally Qualified Clinics, again, a Federal resource. In both 
of these, for example, when we are partnering in Anchorage, the 
delivery system, if you are a veteran on the list already, you 
will get same-day care unless it is major medical. That is a 
pretty--I mean, that should be the goal, right; that when you 
walk in as a veteran, you should get care. We are very excited. 
We are getting about 70 to 80 folks a week signing up in 
Anchorage on those two elements, and throughout the State many 
are signing up, in the hundreds, to be partners and work--or 
veterans being able to access those partner agencies.
    We also have an incredible delivery system, and what I mean 
by that, not just the mechanism, but the kind of care we 
deliver. It is called Nuka. This is a holistic view of 
medicine. It is not just, you know, you come in with one 
ailment and that is all we take care of. We try to look at the 
whole system. You get a team that works with you for mental 
health, eye, hearing, primary, and so forth. So, the idea is 
that the outcome of the health care is better than just a 
process that they are going through.
    So, I would hope that you would be willing to consider 
looking at that. I know the VA has been looking at this as a 
model in some areas because of its uniqueness and how it 
produces outcomes. For example, in our Native Health Clinic, we 
dropped emergency care folks coming through by almost 60 
percent by changing this one simple thing. And I say 
``simple.'' It was not simple, but, I mean, it is now.
    Would you commit to, at some point--and you had mentioned 
you are going to go around--again, we do not have a hospital, 
but we have a clinic and we have a unique delivery system--to 
come to Alaska to see what we are doing and learn from what we 
are trying to do?
    Mr. McDonald. Certainly, I would like to go to Alaska 
again. I have been there many times----
    Senator Begich. Fantastic.
    Mr. McDonald [continuing]. And have always enjoyed it. I 
think what you described, as trying to prevent the illness or 
trying to prevent the problem rather than only treating it once 
it occurs, is really the cutting edge of medicine. The work we 
have done at Procter & Gamble with our health care business has 
always been about preventing the illness from occurring----
    Senator Begich. Very good.
    Mr. McDonald [continuing]. In order to keep people healthy 
longer.
    Senator Begich. Holistic delivery system----
    Mr. McDonald. Holistic----
    Senator Begich [continuing]. And delivery system reforms.
    Mr. McDonald. Absolutely.
    Senator Begich. That is what I am interested in, so, great. 
We will take you up on that.
    Second, I just want to echo what Senator Blumenthal 
mentioned about the growing population of women within the VA 
system, almost now two million more women are veterans and it 
is creating a growing challenge, because some of our clinics, 
hospitals, facilities, were not designed for the needs of 
women. So, I want to hear you say it again, is your commitment 
to make sure that the women who are veterans will also get 
equal treatment as you are looking at, reviewing, reforming, 
and improving the system?
    Mr. McDonald. Yes, sir.
    Senator Begich. Your issue on the DOD, I want--this is a--
you may not want to answer this--well, maybe you do now, 
because you are not sworn in yet, so this might be good that 
you are not a Cabinet Secretary yet. Here is what is going to 
happen. You are going to have all these wonderful ideas, which 
we are anxious for. You are going to then present these ideas 
to my favorite friends over at the Office of Management and 
Budget, who will then tell you, ``You do not have enough money. 
That is not what can be done.'' Then, you are going to have to 
reform what you brought forward.
    Are you willing to kind of buck the system to say, here is 
what we need if we are serious about dealing with our veterans 
and funding our veterans, which may mean you have to say 
something to OMB that, you know, no disrespect to my friends at 
OMB--and they are my friends, Shaun Donovan, who is now the 
Director--I call them the Great Sanitizers. As a former mayor, 
I had my OMB folks. They were always hammering down. Are you 
willing to push--be the advocate for the veterans when the 
system says, you cannot do it because you do not have the 
money?
    Mr. McDonald. Well, it is--you know, my intention is to 
meet with members of the Office of Management and Budget 
roughly once a week or so, so that there are not any surprises. 
I mean, they are a constituency and they are going to be 
helpful, as well. So----
    Senator Begich. Good.
    Mr. McDonald [continuing]. I think a partnership with them 
is critically important, just as a partnership with that kind 
of organization in the private sector would be, as well.
    Senator Begich. Excellent. Last question. I had some 
others, but I will submit them for the record. We have seen 
this play before with DOD, and I have seen it on the 
Appropriations Committee, when we brought DOD, VA, Social 
Security, and the IRS together to figure out this disability--
when they say, ``It is not our problem'' at some point, and I 
am glad that Hagel has called you--I think that is a good step. 
Again, will you stand tall and say, look, we are going to have 
these integrated systems that are clean and that the veteran 
does not have to worry about. We, as agencies in government and 
Congress should worry about it, but they should never worry 
about their records going from A to B. Will you be able to--I 
mean, DOD, the Pentagon are big--I have seen what they have 
done before, so I am just anxious for your----
    Mr. McDonald. The Pentagon may be big, but Secretary Hagel 
and I are small. There are only two of us, and I think that we 
can work together on these kinds of things.
    Senator Begich. Excellent.
    Mr. McDonald. I do plan to let him know what our needs are, 
and I hope, in return, he will let me know what his needs are. 
As I said earlier, the fact that he reached out to me, I think, 
is a great sign.
    Senator Begich. I think it is a great sign.
    Mr. McDonald. Yes, a great sign. He is a great leader, so 
it did not surprise me.
    Senator Begich. I was happy to support him when he was 
nominated.
    Mr. Chairman, thank you very much. I will submit some more 
questions for the record, and I appreciate your willingness to 
be here today.
    Mr. McDonald. Thank you, Senator Begich.
    Chairman Sanders. We are coming to a close, and let me 
thank you, Mr. McDonald, for being here, for your willingness 
to serve, for your testimony today. What we are going to try to 
do, which I hope and believe we can, is to have a vote on your 
confirmation tomorrow. And I believe, based on what I heard, 
you are going to be confirmed. I hope that is the case.
    The other thing that I would say, and Senator Moran raised 
the issue earlier, is that there is a Conference Committee 
report out there. My only disagreement with what Senator Moran 
said is there is also a House of Representatives, not just the 
Senate, and both bodies are going to have to work together. I 
hope very much that we will be able to do that and I hope we 
will be able to do that before we leave here for the recess; 
and I hope we will be able to provide you with the emergency 
help that you need to deal with the immediate crisis of waiting 
periods for veterans. I hope, also, that we are going to give 
you the resources you need to get the doctors and nurses and 
other personnel that you need so that we do not have this 
crisis in years to come.
    Let me just conclude by saying you have heard, and I know 
you are aware, of the very significant problems facing the VA. 
In addition to everything else, we have two million veterans 
who have come into the system in recent years. You are going to 
be dealing with the crisis of 500,000 men and women dealing 
with PTSD and TBI. You are going to be dealing with a shortage 
of personnel. You are going to be dealing with accountability 
issues. You are going to be dealing with the need to develop a 
new culture at the VA. That is quite a task in front of you.
    On the other hand, what I would tell you is that what you 
have going for you is that the American people feel very, very 
strongly about the need to provide for and take care of those 
who have sacrificed so much, and I think they will support you 
as you come forward with ideas to do just that.
    So, I thank you very much for being here.
    Mr. McDonald. Thank you, Chairman Sanders.
    Chairman Sanders. This hearing is adjourned.
    Mr. McDonald. Thank you.
    [Whereupon, at 5:29 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------                              


         Letter from American Association of Nurse Anesthetists
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]        
         
        


                                 ______
                                 
                      Letter from Ascension Health


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
               Letter from National Nursing Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





   NOMINATION OF LEIGH A. BRADLEY TO BE GENERAL COUNSEL OF THE U.S. 
                     DEPARTMENT OF VETERANS AFFAIRS

                              ----------                              


                       THURSDAY, DECEMBER 4, 2014

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Bernard 
Sanders, Chairman of the Committee, presiding.
    Present: Senators Sanders and Isakson.

   OPENING STATEMENT OF HON. BERNARD SANDERS, CHAIRMAN, U.S. 
                      SENATOR FROM VERMONT

    Chairman Sanders. We are going to convene the hearing. 
There are a number of votes today, so Senator Isakson and I 
would like to move this along as quickly as possible.
    Leigh Bradley, you have been nominated by the President to 
be General Counsel at the VA. Would you like to say a few 
words?
    Ms. Bradley. Thank you. I would. Chairman Sanders, 
Ranking----
    Chairman Sanders. Oh, I am sorry. I have to swear you in. I 
apologize. If you could stand and raise your right hand, 
please.
    Do you solemnly swear or affirm that the testimony you are 
about to give before the Senate Committee on Veterans' Affairs 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Ms. Bradley. I do.
    Chairman Sanders. Thank you. Please continue.

STATEMENT OF LEIGH A BRADLEY, NOMINATED TO BE GENERAL COUNSEL, 
              U.S. DEPARTMENT OF VETERANS AFFAIRS

    Ms. Bradley. Chairman Sanders, Ranking Member Burr, 
distinguished Members of the Committee on Veterans' Affairs, 
thank you so much for the opportunity to testify before you 
today. I am humbled and honored to have been nominated by 
President Obama to be VA General Counsel and grateful to 
Secretary McDonald and Deputy Secretary Gibson for their 
confidence in me.
    Mr. Chairman, from the start of my legal career in 1987 as 
an active duty Air Force Judge Advocate to my present position 
as the Director of the Department of Defense Standards of 
Conduct Office, I have been guided by a deep and personal 
commitment to our Nation's Armed Forces and its veterans.
    I come from a long and proud line of military veterans. My 
father is a Vietnam veteran who served as a career officer in 
the Army Corps of Engineers. Both of my grandfathers served in 
the U.S. Army, one in World War I and one in World War II. My 
husband served for 20 years as an active duty Air Force Judge 
Advocate. And, my brother-in-law currently serves as an Air 
Force B-1 weapons systems operator.
    Finally, and I say this with great pride and joy, my 
daughter has decided to follow in the family's footsteps. She 
is a Second Lieutenant in the Air Force, studying to be a 
doctor at the Uniformed Services University of the Health 
Sciences at Walter Reed. I am immensely proud of her decision 
to continue our family's tradition of service in uniform.
    I have spent the majority of my legal career supporting the 
mission of the Armed Forces and the needs of our Nation's 
veterans. After 5 years on active duty, I was selected for a 
civilian position in the DOD Office of General Counsel. Later, 
I served as the Principal Deputy General Counsel of the Navy, 
the second highest ranking civilian attorney in an office of 
over 600. In 1998, 15 years ago, I was nominated by President 
Clinton and confirmed by the Senate to be General Counsel of 
the Department of Veterans Affairs. And, in my current 
position, I advise the senior DOD leadership on ethical 
compliance and creating and sustaining ethical cultures across 
the Department.
    I was also fortunate to have served in senior positions in 
the private sector for 7 years, first as a partner at Holland 
and Knight, a national law firm, and then as Chief of Staff and 
Chief Risk Officer of the American Red Cross. These positions 
instilled the discipline and accountability that follow from 
regularly meeting a bottom line and delivering concrete results 
that meet the expectations of a broad range of parties, 
including paying clients, charitable donors, and a board of 
directors.
    My family background and legal career have inspired in me 
an abiding respect and appreciation for the contributions of 
the men and women currently serving in uniform and every 
generation of our veterans who have, throughout our history, 
selflessly demonstrated their willingness to defend our 
country's interests with their lives. I absolutely believe that 
it is VA's sacred duty to care for these patriots.
    Of late, however, VA has not met its responsibilities fully 
and obligations to its veterans and we must make restoring 
their trust our top priority. To quote Secretary McDonald, 
``The seriousness of this moment demands urgent action.'' I am 
deeply inspired by the dedication, vision, and leadership of 
Secretary McDonald and Deputy Secretary Gibson. While this is, 
indeed, a challenging time at VA, it is also an exciting and 
transformative time in which the leaders of the Department, in 
cooperation with Congress, Veterans Service Organizations, and 
other veteran stakeholders, can collaborate to reform and 
improve services to our veterans.
    Yes, there is hard work to be done, but for me, there is no 
higher calling than to be part of the historic movement which 
will have lasting positive impacts on the care and benefits we 
deliver to veterans and the way VA operates going forward.
    Accordingly, if confirmed, I will work closely with the VA 
leadership team to strengthen the Department's ability to serve 
our Nation's veterans and restore trust to them with Congress 
and with the American public. I will do all in my power to 
provide thoughtful expert advice and counsel on all legal 
matters, including those associated with the implementation of 
both the Veterans Choice Act and MyVA, as well as the legal 
issues associated with improving access to medical care, 
delivery of better services and benefits to our veterans, 
protecting the rights of whistleblowers, and helping to ensure 
that the processes to hold employees accountable for wrongdoing 
are expedient, fair, and defensible. I will do this by 
exemplifying VA's core values of integrity, commitment, 
advocacy, respect, and excellence.
    Finally, I would not be here today without the unwavering 
encouragement of my family, starting with my mom and dad, 
Jackie and Phil Bradley, and the constant support and love of 
my husband of over 30 years, Doug Wade, and our daughter, 
Lieutenant Jacqueline Wade, both of whom accompany me today.
    Thank you again, Mr. Chairman and Members of the Committee, 
for your consideration of my nomination. I would be happy to 
answer any questions you may have and ask that this statement 
be entered into the record.
    [The prepared statement of Ms. Bradley follows:]
Prepared Statement of Ms. Leigh Bradley, Nominee to be General Counsel, 
                  U.S. Department of Veterans Affairs
    Chairman Sanders, Ranking Member Burr, distinguished Members of the 
Committee on Veterans' Affairs, Thank you for the opportunity to 
testify before you today. I am humbled and honored to have been 
nominated by President Obama to be VA General Counsel, and grateful to 
Secretary McDonald, and Deputy Secretary Gibson for their confidence in 
me.
    Mr. Chairman, from the start of my legal career in 1987 as an 
active-duty Air Force Judge Advocate to my present position as Director 
of the Department of Defense (DOD) Standards of Conduct Office, I have 
been guided by a deep and personal commitment to our Nation's Armed 
Forces and its Veterans. I come from a long, proud line of military 
Veterans. My father is a Vietnam Veteran who served as a career officer 
in the Army Corps of Engineers. Both of my grandfathers served in the 
U.S. Army--one in World War I and the other in World War II. My husband 
served for 20 years as an Air Force Judge Advocate, and my brother-in-
law currently serves as an Air Force B-1 Weapons Systems Operator.
    Finally, and I say this with great joy and pride, my daughter has 
decided to follow in the family's footsteps. She is a 2nd Lieutenant in 
the Air Force, studying to be a doctor at the Uniformed Services 
University of the Health Sciences at Walter Reed. I am immensely proud 
of her decision to continue our family's tradition of service in 
uniform.
    I have spent the majority of my legal career supporting the mission 
of the Armed Forces and the needs of our Nation's Veterans. After five 
years on active duty, I was selected for a civilian position in the DOD 
Office of the General Counsel. Later, I served as the Principal Deputy 
General Counsel of the Navy, the second highest ranking civilian 
attorney in an office of over 600. In 1998, I was nominated by 
President Clinton and confirmed by the Senate to be General Counsel of 
the Department of Veterans Affairs. And in my current position, I 
advise the senior DOD leadership on ethical compliance and creating and 
sustaining ethical cultures across the Department.
    I also was fortunate to have served in senior positions in the 
private sector for seven years--first, as a partner at Holland and 
Knight LLP, a national law firm, and then as Chief of Staff and later 
Chief Risk Officer of the American Red Cross. These positions instilled 
the discipline and accountability that follow from regularly meeting a 
bottom line and delivering concrete results that meet the expectations 
of a broad range of parties, including paying clients, charitable 
donors, and a board of directors.
    My family background and legal career have inspired in me an 
abiding respect and appreciation for the contributions of the men and 
women currently serving in uniform and every generation of our 
Veterans, who have, throughout the history of our Nation, selflessly 
demonstrated their willingness to defend our country's interests with 
their lives. I absolutely believe that it is VA's sacred duty to care 
for these patriots.
    Of late, however, VA has not fully met its responsibilities and 
obligations to Veterans, and we must make restoring their trust our top 
priority. To quote Secretary McDonald, ``the seriousness of this moment 
demands urgent action.'' I am deeply inspired by the dedication, 
vision, and leadership of Secretary McDonald and Deputy Secretary 
Gibson. While this is a challenging time at VA, it is also an exciting 
and transformative time in which the leaders of the Department, in 
cooperation with Congress, Veterans Service Organizations, and other 
Veterans' stakeholders can collaborate to reform and improve services 
to Veterans.
    Yes, there is hard work to be done. But for me, there can be no 
higher calling than to be part of this historic moment which will have 
lasting, positive impacts on the care and benefits we deliver to 
Veterans and the way VA operates going forward.
    Accordingly, if confirmed, I will work closely with the VA 
leadership team to strengthen the Department's ability to serve our 
Nation's Veterans and restore trust with them, with Congress, and with 
the American public. I will do all in my power to provide thoughtful, 
expert advice and counsel on all legal matters including those 
associated with the implementation of both the Veterans Choice Act and 
MyVA (the Secretary's ground-breaking initiative to bring a singular 
focus on customer service to Veterans), improving access to medical 
care, better delivery of other VA services and benefits, protecting the 
rights of whistleblowers, and helping to ensure that the processes to 
hold employees accountable for wrong-doing are expedient, fair, and 
defensible. I will do this by exemplifying VA's core ethical values of 
integrity, commitment, advocacy, respect, and excellence.
    Finally, I would not be here today without the unwavering 
encouragement of my family starting with my Mom and Dad, Jackie and 
Phil Bradley, and the constant support and love of my husband of over 
30 years, Doug Wade, and our daughter LT Jacqueline Wade, both of whom 
accompany me today.

    Thank you again, Mr. Chairman and Members of the Committee, for 
your consideration of my nomination. I would be happy to answer any 
questions you may have, and I would ask that this statement be entered 
into the record.
                                 ______
                                 
 Response to Prehearing Questions Submitted by Hon. Bernard Sanders to 
 Ms. Leigh Bradley, Nominee to be General Counsel, U.S. Department of 
                            Veterans Affairs
    Question 1.  What are the most pressing challenges confronting the 
Office of General Counsel and, if confirmed, what steps would you take 
to immediately begin addressing these challenges?
    Response. Any in-house law firm's greatest challenges are 
necessarily the same as its client organization's. Secretary McDonald 
recently framed the key challenges facing the Department of Veterans 
Affairs at this moment in time. The Secretary said that VA must first 
restore the trust it has lost--the trust of our veterans and of our 
stakeholders, including the Congress and the American public. To do 
that, VA must promptly and successfully implement the Veterans Access, 
Choice, and Accountability Act (VACAA) to ensure Veterans receive 
timely access to health care. Second, VA must transform into a veteran-
centric agency, organized to provide service and information to our 
veteran customers with a minimum of difficulty or confusion. Third, VA 
must ensure sustainable leadership accountability throughout the 
Department.
    The Office of General Counsel shares these challenges with VA, and 
OGC personnel must devote their work and energy to ensuring VA realizes 
these goals. OGC attorneys have already done much in this regard, and--
if confirmed--I will ensure that OGC actively assists VA in driving 
this work to conclusion. With OGC's assistance, VA must continue to 
ensure VACAA is implemented seamlessly, without confusion, and without 
creating hardships for veterans. Similarly, OGC must actively assist 
the Department in transforming to achieve Secretary McDonald's MyVA 
mission. To achieve sustainable leadership accountability, OGC must 
continue to support VA's exercise of its new authorities for addressing 
senior executive discipline and performance. OGC must energetically and 
effectively support and counsel VA in its efforts to transform VA 
continue in the near term and beyond.
    I would also, if confirmed, identify ways in which OGC can improve 
its own operations, to better support its client's success. I believe, 
for example, that success in reestablishing trust will require openness 
and transparency in all that VA does, and that the OGC has a vital role 
to play in providing prompt and vital support in this area.

    Question 2.  You served as VA's General Counsel from 1998 to 2001. 
What lessons did you learn from that experience that would aid you, if 
confirmed, in serving again as General Counsel?
    Response. When I was confirmed to be VA General Counsel in 1998, I 
was 42 years old and had served in only one significant leadership 
position prior to that--Principal Deputy General Counsel of the Navy. 
During my service as VA General Counsel from 1998-2001, I learned of 
the extraordinary commitment to mission and deep legal expertise of the 
staff of the Office of General Counsel.
    In that role and subsequent senior executive roles at the American 
Red Cross and more recently at DOD, I have learned important management 
lessons that have underscored the need for any General Counsel of a 
large organization like VA to possess superb leadership skills. As VA 
continues to grapple with its most significant crisis in a generation, 
it is especially critical that its chief legal officer be a strong 
leader.
    If I am fortunate enough to be confirmed again to serve as VA 
General Counsel, I will leverage the important management lessons I 
have learned over the past 16 years about how to be a principled, 
effective, and responsive leader. Specifically I will lead with a clear 
purpose that is tied directly to the strategic goals established by the 
Secretary. I will set the ethical tone for OGC's large, decentralized 
office by modeling VA's fundamental ethical values in all my actions. I 
will apply my leadership experience to help ensure that OGC delivers 
excellent results and work products in a timely manner. I will endeavor 
to get the right OGC leaders in the right positions, which is one of 
the hardest, but most important responsibilities of leadership. I also 
will ensure OGC recruits and develops legal talent with a genuine 
passion for VA's mission and commitment to our Nation's Veterans. I 
will regularly encourage OGC attorneys to collaborate with their 
clients up-front in the initial stages of policy development and not 
wait to simply conduct a legal sufficiency review at the end of the 
process. I will establish and maintain an atmosphere in which every 
member of OGC feels comfortable reporting ``bad news'' to the boss and 
encourage all to help develop solutions to identified concerns. 
Importantly, I will hold myself and others in OGC accountable for 
fulfilling these responsibilities to the Department, the Nation's 
Veterans, and the public at large.

    Question 3.  Please describe the duties and responsibilities you 
were assigned during your recent detail as Special Counsel to the 
Acting Secretary and Secretary of Veterans Affairs.
    Response. I was brought in by the VA leadership in the midst of the 
crisis out of Phoenix to focus on two things: leader accountability and 
whistleblower retaliation.
    As Secretary McDonald has repeatedly emphasized, to regain 
Veterans' trust in their VA, we must restore their faith in the leaders 
who set the course for the Department and the managers and supervisors 
who carry out leadership's policies and plans. The vast majority of VA 
employees are deeply and personally committed to the mission and values 
of the organization. Yet we know that some in the Department have 
violated the core value of integrity, have underperformed and failed to 
deliver on the mission, or have created a work environment where 
employees did not feel safe coming forward to voice concerns or 
identify emerging problems. VA cannot serve our Veterans effectively 
unless we hold employees accountable for such wrong-doing, and do so as 
expeditiously as the law allows.
    To promote a culture of sustainable accountability, then-Acting 
Secretary Gibson established a multidisciplinary accountability review 
team and asked me to oversee its work during my four-month detail to 
VA. Comprised of employee relations specialists, attorneys, and 
administrative investigators, the team developed a model and standard 
practices for: (1) evaluating allegations of leadership misconduct and 
poor performance; and (2) when necessary, convening Administrative 
Investigation Boards to determine leader culpability and develop a 
sound evidentiary record. While these efforts have been underway for 
only a few months, they have helped to ensure that VA's leader 
accountability actions are expedient, fair, defensible, and always 
grounded in improving service to Veterans.
    I also was charged to help the Department focus on whistleblower 
retaliation and facilitate VA's relationship with the Office of Special 
Counsel. Whistleblowers do VA--and other agencies--a tremendous 
service. We rely on employees on the ground, in the front lines, to 
identify problems and opportunities to improve. Some supervisors 
respond positively when concerns are raised, but others get defensive 
and may want to blame the messenger. Employees who voice concerns 
understandably fear they will be punished for speaking out. We need 
everyone to understand and comply with the whistleblower protection 
laws so people feel comfortable speaking out and supervisors don't 
react defensively.

    Question 4.  VA's culture has been described as corrosive and 
nonresponsive. How do you change the culture of a large public 
organization? What actions, if confirmed, would you recommend or take 
in order to address the cultural problems faced by VA?
    Response. I believe that in order to change the culture of any 
large organization, the tone must be set at the top. Secretary McDonald 
set that tone powerfully on his first day in office by committing 
publicly to foster a Department that lives by its core values of 
integrity, commitment, advocacy, respect, and excellence. I know from 
experience that an organization that establishes and embraces 
fundamental ethical values is also likely to create a work environment 
in which employees feel comfortable raising concerns and do not fear 
retaliation for bringing bad news to the boss. Such an open environment 
promotes collaboration, productivity, and even innovation. Now, more 
than ever, as VA addresses significant challenges to restore the 
public's trust, we must examine and remedy systemic failures that 
suggest that some in the Department have lost track of VA's sacred 
mission and core values. My experience developing and implementing 
DOD's leader-led, values-based training over the past two years 
prepares me well to assist the Secretary and Deputy Secretary bring 
about needed culture change at VA and if confirmed, I will make this 
effort a top priority.

    Question 5.  What role should the Office of General Counsel play in 
both preventing and addressing instances of whistleblower retaliation?
    Response. Secretary McDonald has said that he wants all employees 
to be whistleblowers; that everybody should feel a responsibility for 
improving the way we serve veterans. If something is not going right we 
should change it. He wants employees to feel empowered to identify 
problems and improvements and safe from any reprisal if they do.
    The Office of General Counsel has a significant role to play in 
both preventing and addressing instances of whistleblower reprisal. The 
Office has been and must continue to be active in educating and 
advising the Department's leadership and the entire workforce on the 
rights and protections of employees to be free from illegal reprisal 
for protected disclosure. OGC has recently taken the lead in ensuring 
that VA complied with the requirements of OSC's Whistleblower 
Certification Program. Under this program OSC certifies Federal 
agencies that meet the statutory obligations to inform their workforces 
about the rights and remedies available to them under the Whistleblower 
Protection Act (WPA) and the Whistleblower Protection and Enhancement 
Act (WPEA), and related civil service laws. OGC worked closely with 
VA's Office of Human Resources and Administration and other VA 
Administrations and Staff Offices. On October 3, 2014, VA was certified 
by OSC under OSC's 2302(c) Whistleblower Protection Certification 
Program. OGC also developed and is presenting training to VHA senior 
leadership on prohibited personnel practices and whistleblower rights 
and protections and has developed and is presenting training to new VA 
SES employees on Ethical Leadership, including the avoidance of PPP.
    The Office of General Counsel also plays an important role in 
addressing and correcting allegations of reprisal. OGC is the principal 
liaison with the Office of Special Counsel and is responsible for 
coordinating OSC referrals of whistleblower complaints. OGC is 
responsible for transmittal of the Department's reports to OSC. In 
response to a request from OSC to develop a new process for handling an 
upsurge of whistleblower retaliation cases that OSC has been receiving 
since the VA Access to Care crisis, OGC designated a centralized point 
of contact (POC) to work with OSC on retaliation complaints related to 
scheduling, patient care, understaffing issues, and related matters.
    Additionally, when it has been determined that illegal reprisal has 
occurred, OGC must be available to counsel leadership concerning 
appropriate measures for holding employees accountable. When 
disciplinary action is taken, the General Counsel must be a forceful 
and effective advocate for the Department before the MSPB, EEOC or FLRA 
if the action is appealed.

    Question 6.  In your current role as Director of the Department of 
Defense (DOD) Standards of Conduct Office, you are responsible for 
DOD's ethics program and policies. Secretary McDonald has made the 
Department's core values--integrity, commitment, advocacy, respect, and 
excellence--a baseline for the standard of behavior expected of VA 
employees. What lessons have you learned during your service as the 
Director of DOD's Standards of Conduct Office that would aid you in 
offering recommendations to foster adherence to VA's core values?
    Response. The principal reason why after a number of years in the 
private sector and at DOD as a career Senior Executive Service employee 
I agreed to be considered for the position of VA General Counsel, 
having served in the job 15 years ago, is Secretary McDonald's lifelong 
commitment to ``values-based leadership,'' and his appeal to me to 
reflect on how I might be able to help the VA leadership team inculcate 
fundamental ethical values in all of VA's business dealings. Shortly 
after his confirmation, the Secretary explained publicly that a 
critical step in assuring appropriate care for veterans is restoring 
their trust in the system and then asked every VA employee to recommit 
to the Department's mission and fundamental ethical values--the I-CARE 
values.
    I believe that such a commitment is central to public service and 
have devoted the past few years of my professional life to 
incorporating core ethical values into DOD's ethics program. After 
serving as the Director of the DOD Standards of Conduct Office for 
several years, I concluded there was a risk that ``ethics'' was turning 
into nothing more than a rules-based compliance effort led 
predominantly by lawyers. I studied private sector models, including 
Procter & Gamble's (developed by then CEO McDonald) and consulted 
leaders in the Defense contractor community and determined that a 
sustainable ethical business culture that engenders public trust must 
be established and reinforced by organization leaders at every level 
(with lawyers in a supporting role) and should be equal parts 
compliance (with the ethics rules) and values-based decisionmaking 
(e.g., evaluating an action to determine whether it is the right thing 
to do when the rules do not provide a clear answer). If confirmed, I 
pledge to work tirelessly with VA leaders to reinvigorate the 
Department's ethical culture so that veterans, indeed the American 
public, can be confident that VA's business policies and practices are 
grounded in fundamental ethical values and that those in the Department 
who do not exemplify these values and have violated the public's trust 
are held accountable.

    Question 7.  In August 2013, the Government Accountability Office 
(GAO) published a report titled ``VA Benefits: Improvements Needed to 
Ensure Claimants Receive Appropriate Representation.'' In order to 
improve the integrity of VA's accreditation program, GAO made four 
recommendations. VA has taken steps to address GAO's recommendations; 
however as of November 17, 2014 all four recommendations remain open.
    a. In your opinion, is the Office of General Counsel the 
appropriate office to operate and have responsibility for the 
accreditation program?
    Response. While I have not had an opportunity to study this issue 
in detail, I am aware from my previous tenure as VA General Counsel 
that managing the accreditation program entails administrative and 
adjudicative duties that differ from the traditional role of the Office 
of General Counsel as legal advisor to the Department. On the other 
hand, there are logical reasons for VA's Office of General Counsel to 
be involved in the regulation of attorneys and other representatives. 
Regardless of where in VA the responsibility for this program lies, the 
Department must diligently carry out its duties to ensure that 
deserving Veterans have access to responsible, qualified representation 
by individuals who are accredited by VA.

    b. What ideas do you have for strengthening and improving VA's 
accreditation system especially in regards to the program's ability to 
respond to reports of inappropriate conduct on the part of an 
accredited agent, attorney or representative?
    Response. During my previous tenure as VA General Counsel, my 
recollection is that OGC conducted its first investigation of a 
complaint of inappropriate activities by a claims agent. Recently, I 
have been informed that the accreditation program has seen positive 
results from collaboration with State law enforcement agencies. If 
confirmed, I will make sure that OGC does everything it can to protect 
claimants from claims agents and accredited representatives who behave 
in inappropriate ways.

    Question 8.  What role do you believe the General Counsel should 
play in evaluating legislation, both introduced in Congress and 
proposed by VA, for legal sufficiency and impact?
    Response. By law, the General Counsel is the chief legal officer of 
the Department and provides legal assistance to the Secretary 
concerning the programs and policies of the Department. In order to 
carry out his duties and responsibilities, the Secretary must be able 
to rely on authoritative expert legal advice concerning a broad array 
of issues, including the legal sufficiency and effect of proposed 
legislation. It is my view that advising on the legal implications of 
introduced or proposed legislation is a primary responsibility of the 
Office of General Counsel. Of course, the Office of General Counsel 
also must work closely with the Office of Congressional and Legislative 
Affairs and the Administrations when reviewing and responding to 
proposed legislation or when developing Department legislative 
proposals. Rigorous and meaningful consultation upfront helps to ensure 
that legislation fulfills its intended purpose.

    Question 9.  What role do you believe the General Counsel should 
play in responding to decisions of the US Court of Appeals for Veterans 
Claims and other courts? For example, should the General Counsel 
provide advice about the meaning of a decision or play a role in 
ensuring compliance with decisions?
    Response. When I last served in OGC, the office played a key role 
in assisting VA program offices in understanding and implementing court 
decisions. In instances where a decision of the Court of Appeals for 
Veterans Claims (CAVC) or the Court of Appeals for the Federal Circuit 
establishes a governing rule of law concerning the meaning of a 
statute, regulation, or other legal authority, it is my view that OGC 
should work closely with the relevant program experts to ensure that 
the governing legal standard is understood. I believe it is also 
critical that OGC provide legal advice and assistance to help program 
offices ensure compliance with these rulings. If a court decision 
identifies concerns or errors, but leaves room for the exercise of 
policy judgment and discretion in developing corrective action, OGC 
must ensure that the program office understands the legal parameters of 
that discretion when making program office decisions.

    Question 10.  VA must continue to make progress in improving the 
timeliness and quality of VA's claims adjudication process. What is the 
appropriate role for the Office of General Counsel to play in VA's 
ongoing claims transformation? What ideas do you have that would 
complement existing transformation efforts?
    Response. Throughout the course of VA's ongoing efforts to improve 
the timeliness and quality of its claims adjudication process, OGC has 
worked closely with the Veterans Benefits Administration (VBA) and 
other offices to evaluate proposed improvements to VA's processes. OGC 
plays a vital role in identifying and evaluating legal issues 
associated with proposed process improvements and in assessing whether 
proposals for change may be implemented under VA's existing authority 
or require statutory or regulatory amendments. I am aware that OGC 
attorneys are involved in the Appeals Modernization effort, working 
with VBA and the Board of Veterans Appeals (BVA) to evaluate ways to 
improve the appeals process, to include enhancements to VBMS, VBA's 
electronic claims adjudication system designed to improve information 
sharing, eliminate duplication of effort, and streamline the overall 
process.
    Through its role representing VA in appeals before the Court of 
Appeals for Veterans Claims, OGC also is uniquely positioned to 
identify recurring issues in VA adjudications that result in remands 
and delay. These insights allow OGC to assist VBA and BVA in 
proactively identifying areas where process and policy improvements or 
targeted training may enhance the timeliness and accuracy of the claims 
adjudication and appeal process. I am mindful of the value of 
identifying improvements to the appeals process that would complement 
VA's ongoing transformation efforts by rendering this process more 
transparent and customer-friendly for veterans. If confirmed, I will 
ensure that OGC is there to assist in the effort to the fullest extent.

    Question 11.  Ongoing and meaningful collaboration between VA and 
DOD holds promise for addressing many of the challenges, such as timely 
access to care and benefits, currently confronting the Department. Are 
you aware of any statutory or other legal impediments that impede the 
Departments' ability to increase collaboration, cooperation or 
resource?
    Response. I am generally aware that VA and DOD have effectively 
engaged in numerous joint ventures and collaborations over recent 
years. For example, VA and Navy have established a fully integrated 
health facility at the Captain James A. Lovell Federal Health Care 
Center (FHCC) in North Chicago, IL. It is my understanding that this 
project was initiated using existing authorities. That suggests that VA 
and DOD have some significant flexibility to collaborate. However, I am 
also aware that Congress enacted specific legislation that enabled the 
FHCC to operate as a more fully integrated facility. I am presently not 
aware of a need for additional authority to carry out any currently 
proposed projects, but as collaboration between the two Departments 
grows, we very well may identify such a need. If confirmed, I hope to 
be able to leverage my longstanding and close relationships with key 
DOD leaders, developed over almost 20 years of service in the Office of 
the Secretary of Defense, Department of the Navy, and U.S. Air Force, 
to assist VA in identifying and pursuing additional collaborative 
partnerships with DOD.

    Question 12.  Do you agree to provide the Committee with timely 
technical assistance on pending legislation?
    Response. If confirmed, I agree to provide the Committee with 
timely technical assistance.

    Question 13.  Do you agree to supply the Committee with such non-
privileged information, materials, and documents as may be requested by 
the Committee in its oversight and legislative capacities for so long 
as you serve in the position of General Counsel?
    Response. If confirmed, I agree to work with the Committee to 
accommodate all requests for non-privileged information, materials, and 
documents.

    Question 14.  Do you agree to appear before the Committee as such 
times and concerning such matters as the Committee might request for so 
long as you serve in the position of General Counsel?
    Response. If confirmed, I agree to appear before the Committee to 
be responsive to the Committee's requests.
                                 ______
                                 
Response to Posthearing Questions Submitted by Hon. Richard Blumenthal 
to Leigh A. Bradley, Nominee to be General Counsel, U.S. Department of 
                            Veterans Affairs
              prosecution of potential criminal violations
    Question 1.  As you know, the VA Office of Investigations opened 
investigations at 93 sites of care in response to allegations of wait 
time manipulations. These investigations specifically seek to determine 
whether management ordered schedulers to falsify wait times and 
Electronic Waiting List records or attempted to obstruct OIG or other 
investigative efforts. I hope that the VA OIG will continue to 
cooperate with the Department of Justice and the FBI in conducting 
investigations to determine potential criminal intent. Holding criminal 
violators accountable is essential to the VA reform process in order to 
restore confidence in the VA among our veterans.
    Ms. Bradley, how do you envision the role of the General Counsel in 
these criminal investigations? How do you plan to work with law 
enforcement to ensure that appropriate leadership at the VA is held 
accountable for wrongdoing and potential criminal misconduct?
    Response. The Office of General Counsel is not charged with and 
does play a direct role in criminal investigations conducted by the VA 
Office of Inspector General or the Federal Bureau of Investigations. 
Neither does the General Counsel advise the Department of Justice on 
decisions concerning prosecution of Federal employees alleged to have 
committed criminal acts. However, if DOJ concludes that prosecution is 
not warranted, the evidence collected and facts found by the OIG, DOJ 
and FBI investigators will be reviewed by the Department to determine 
what, if any, administrative actions may be appropriate.
    In the event administrative disciplinary action is determined to be 
appropriate, the Office of General Counsel will provide legal advice 
and services necessary to effectuate and defend such actions. Secretary 
McDonald and Deputy Secretary Gibson have made it clear that holding VA 
employees accountable is a top priority as they work to restore public 
trust in VA. I will work tirelessly to support those efforts.
         responding to inadequacies and terminating leadership
    Question 2.  I have heard from Connecticut VA nurses that despite 
success in nursing school, they are not adequately trained at the VA 
yet are assigned full nursing responsibilities, risking patient safety. 
Adequate training for nurses is a challenge across the health care 
industry, but one constituent expressed her concerns to her supervisors 
about lack of training and inadequate staffing and found her career 
threatened.
    Ms. Bradley, if confirmed as General Counsel, you will be 
responsible for balancing the VA's requirement to protect employees who 
express inadequacies while also following through on Secretary 
MacDonald's commitment to terminate those providing inadequate care. 
Could you please speak to your qualifications that will enable you to 
balance these obligations and ensure that appropriate employee 
decisions are made?
    Response. VA's primary mission is to provide the best care possible 
for our Veterans. To accomplish this mission, VA employees must have 
faith that their work environment is open and transparent. When an 
employee expresses concerns over a lack of training or inadequate 
staffing, those concerns must be addressed.
    Veterans Health Administration policies already encourage employees 
to step forward and raise concerns with clinical care. The Secretary 
and the Deputy Secretary have strongly emphasized VA's commitment to 
ensuring the rights and protections of whistleblowers. VA has of late 
made great strides in strengthening these protections.
    OGC has played an important role in this process by closely 
coordinating with the U.S. Office of Special Counsel (OSC) to develop 
mandatory training for all VA managers and supervisors on whistleblower 
rights and protections. This training encourages supervisors to allow 
their employees to step forward and disclose wrongdoing. The training 
also emphasizes that supervisors must take employee disclosures 
seriously. As General Counsel, I will ensure that OGC continues to 
strongly support the Secretary's efforts to ensure all employees feel 
secure in making protected disclosures and that those employees who 
retaliate against whistleblowers are held accountable.
                     veterans' access to legal care
    Question 3.  I understand that if confirmed, your role as General 
Counsel will primarily focus on legal representation within the VA, 
particularly with regards to employees and whistleblowers. But our 
veterans also require legal counsel and representation. The Connecticut 
Veterans Legal Center, located at the VA Errera Community Care Center 
in West Haven, provides easy access to free legal assistance to ensure 
that veterans are equipped to overcome legal barriers to housing, 
healthcare and income. I am committed to doing everything that we can 
to help veterans receive appropriate legal counsel.
    Ms. Bradley, given your experience and position, do you have any 
suggestions to improve lack of access to legal representation for our 
veterans who use VA services?
    Response. With the exception of our Grant & Per Diem and Supportive 
Services for Veterans Families programs, VA has no legal authority to 
directly fund or provide legal service programs to veterans.
    VA is able to provide space at VA facilities to organizations which 
provide legal services to veterans. In addition to the Connecticut 
Veterans Legal Center, VA has partnered with 79 other organizations 
which have established free legal clinics in our medical facilities 
nationwide. These include law school clinical programs, legal aid 
organizations, and law firms working pro bono. VA will continue to seek 
opportunities to work with such organizations and provide veterans 
greater access to legal representation.
    On a related note, VA also supports the 266 Veterans Treatment 
Courts across the Nation. As you may know, these are courts that have 
been established by local jurisdictions in which cases involving 
veterans charged with criminal offenses may be addressed. The idea is 
to ensure that veterans facing generally minor offenses, especially 
those that may be related to mental health issues, substance abuse 
issues, and homelessness have the opportunity to connect with resources 
and services available from VA. We have 250 Veterans Justice Outreach 
Specialists (VJOS) at VA who work with these courts and help Veterans 
get the treatment they need instead of being incarcerated. Every VA 
medical center has at least one VJO Specialist. All told, VJOS have 
served nearly 90,000 Veterans since October 2009. Our research shows an 
88% reduction in arrests from the year prior to the year after 
participation in a Veterans Treatment Court.
                                 ______
                                 
 Response to Posthearing Questions Submitted by Hon. Johnny Isakson to 
  Leigh A. Bradley, Nominee to be General Counsel, U.S. Department of 
                            Veterans Affairs
                            firing employees
    Question 4. In July 2014, VA announced that you were being detailed 
from the Department of Defense to serve as special counsel to the 
Secretary of Veterans Affairs to (quote) ``assist [VA] in taking action 
against those supervisors and employees accused of wrongdoing or 
serious management negligence.''
    A. Based on that experience, do you have thoughts on what more 
could be done to expedite the process of disciplining supervisors or 
employees when necessary? Do you think it takes too long now?
    Response. Secretary McDonald has expressed his firm commitment to 
holding leaders accountable for misconduct and poor performance. The 
expedited senior executive removal authority provided by the Veterans 
Access, Choice, and Accountability Act (Choice Act) furthers this goal. 
I believe that with the new authority and process contained in the 
Choice Act, VA has the tools needed to speed up VA's disciplinary 
process for senior executives. While the new authority has been in 
effect for only a few months and has not been fully tested, the 
Department has been able to rely on it to remove several senior 
executives in a way that is fair, expedient, and defensible. I do not 
believe additional enhancements are needed at this time.
    B. Do you believe that VA has sufficient legal authorities to 
quickly terminate managers who fail to live up to VA's expectations? If 
not, do you have any suggestions on how VA's authorities could be 
enhanced?
    Response. Given the information that is currently available to me, 
I believe the necessary authorities are in place.
    C. In implementing its new authority to fire employees, VA is 
providing a 5-day period for due process between the time the employee 
is notified of the proposed termination and when the firing actually 
happens. But, this may allow the employee time to retire or resign, 
rather than being terminated. Do you know what actions VA is taking--or 
could take--to ensure that the employee's personnel record will reflect 
this decision to resign or retire rather than being fired? How will 
other agencies know that there were disciplinary reasons for the 
employee leaving, if they later consider hiring that employee?
    Response. Prior to the Choice Act, VA senior executives were 
entitled to the same due process that applies to most other Federal 
employees who are proposed for removal or transfer out of the Senior 
Executive Service. They were entitled to thirty days' advance notice 
and the right to respond orally and in writing. The Choice Act 
abbreviated VA senior executives' appeal rights, but did not address 
pre-termination due process. VA's implementing policy gives senior 
executives five working days' advance notice and a right to reply in 
writing before a decision is made to remove or transfer the senior 
executive. This pre-decisional reply process is intended to ensure 
that: (1) VA has all the relevant evidence, including the employee's 
side of the story, before deciding whether to take action and, (2) 
well-founded termination actions are not overturned on appeal because 
of due process infirmities.
    Any Federal employee who is retirement-eligible can apply for and 
receive earned retirement benefits even if he or she is removed from 
Federal service for poor performance or misconduct. In other words, 
removal from Federal service does not preclude the former employee from 
drawing earned retirement benefits, provided the Federal employee is 
retirement eligible (based on age and years of Federal service) and has 
not engaged in a very limited number of the most serious criminal acts 
such as treason, espionage, or terrorism. Thus, hypothetically, even if 
a VA employee were to be summarily fired with no notice, provided he or 
she is eligible to retire, that employee could still apply for and draw 
earned retirement benefits. If an employee retires or resigns with a 
removal action pending, that fact is coded into the paperwork 
documenting the employee's departure from the agency and becomes part 
of his or her permanent personnel file.
                       whistleblower protections
    Question 5.  It is my understanding that you worked on the issue of 
whistleblower protections while on detail to VA earlier this year, as 
well as when you previously served as the VA General Counsel. In fact, 
you testified back in 1999 about the need to enhance protections for 
whistleblowers at VA.
    A. What lessons did you learn from your experiences dealing with 
whistleblower protections in the 1990s that could aid VA's efforts now?
    Response. My experience in the 1990s taught me that whistleblower 
disclosures can save lives and money and identify systemic problems 
within an organization. I learned that having laws and mechanisms in 
place that are intended to protect whistleblowers is not enough. The 
organization must embrace a culture that not only protects 
whistleblowers from unlawful reprisal but also encourages employees to 
come forward and make disclosures that will lead to improvements and 
corrections in Department operations and services. I know that the 
Secretary and Deputy Secretary of Veterans Affairs are committed to 
fostering a VA culture in which employees feel safe bringing bad news 
to their boss, and if confirmed, I will not only make whistleblower 
protection one of my top priorities, but will work closely with VA 
leadership to ensure that VA's culture encourages employees to identify 
emerging problems and system deficiencies without fear of management 
retaliation.

    B. At that hearing in 1999, Members of Congress talked about VA 
tolerating retaliation and the need for the culture at VA to change. 
More recently, a White House advisor found earlier this year that VA 
still has ``a history of retaliation toward employees raising issues.'' 
In your view, why hasn't VA's culture yet embraced the need to 
encourage and protect whistleblowers?
    Response. I believe that culture change must begin at the top and 
cascade down throughout the organization. Further, in order for culture 
change to stick, top organization leaders must make concerted efforts 
to ensure that subordinate managers and supervisors continue to focus 
on and are held accountable for institutionalizing the change. Both the 
Secretary and the Deputy Secretary of Veterans Affairs have strongly 
reaffirmed VA's commitment to whistleblower rights and protections and 
stated their intent to make protection of whistleblowers a hallmark of 
their tenure. They have asked VA employees to recommit in writing to 
VA's fundamental values and are holding leaders accountable for 
retaliating against employees who blow the whistle. If confirmed I will 
ensure the Office of General Counsel continues to take an active role 
in making sure that VA embraces both the letter and the spirit of 
whistleblower protection laws and will support the Secretary and Deputy 
Secretary in their efforts to reform VA's culture and make that change 
a lasting one.

    C. Can you tell us about the recent steps VA has taken to try to 
ensure that whistleblowers are treated appropriately at all levels of 
VA? Is there anything different about the current reform efforts that 
lead you to believe they will take lasting hold?
    Response. Both the Secretary and the Deputy Secretary of Veterans 
Affairs have strongly reaffirmed VA's commitment to whistleblower 
rights and protections. They have done this by explaining to potential 
and current whistleblowers that their disclosures are encouraged 
because they are necessary to VA's efforts to restore public trust and 
improve the delivery of services to our Nation's veterans. The 
Secretary and Deputy Secretary have also advised supervisors and 
managers across the Department that any form of retaliation against 
those coming forward to make protected disclosures will not be 
tolerated and that supervisors and managers will be held accountable if 
they retaliate against their employees. Holding leaders at every level 
of the organization accountable for the protection of whistleblowers 
will, I believe, have a significant effect on changing the culture and 
ensuring that current reforms stick.

    D. What additional steps, if any, do you believe are necessary to 
ensure that whistleblowers feel free to come forward and are not 
retaliated against in response?
    Response. Changing a culture is a process and VA has some way to go 
to reestablish trust with employees to ensure they feel comfortable in 
making a disclosure of suspected wrongdoing or system weakness. The 
tone for the culture of any large organization must be set at the top. 
As it relates to ensuring whistleblower protections, Secretary McDonald 
has set that tone from the beginning. He has committed publically to 
fostering a Department that lives by its core values of integrity, 
commitment, advocacy, respect and excellence. An organization that 
establishes and embraces such fundamental ethical values is likely to 
produce employees who feel comfortable raising concerns without fear of 
retaliation for bringing ``bad news'' to the boss. I believe that 
Secretary McDonald's clear and persistent focus on spreading this 
culture throughout the Department is the message we need for success. 
The recent mandatory training for managers and supervisors on 
whistleblower rights and protections plays a key role in this path 
forward. The training helps managers understand ways in which they can 
make their employees feel more comfortable about blowing the whistle. 
The training also includes practical examples for managers with insight 
on the benefits of whistleblower disclosures and the dangers of 
whistleblower retaliation. During my four-month detail to VA from DOD, 
I was able to help lead one of these trainings with the VA Medical 
Center Directors and if confirmed, would be pleased to be a regular 
part of such trainings in the future.
    E. In October 2014, VA announced that it received certification 
under the Office of Special Counsel's Whistleblower Protection 
Certification Program, which primarily appears to require that VA 
disseminate information to employees and supervisors about 
whistleblower protections. Do you have thoughts on how VA will be able 
to judge whether these outreach efforts have been effective?
    Response. On October 3, 2014, VA was certified by the Office of 
Special Counsel (OSC) under OSC's 2302(c) Whistleblower Protection 
Certification Program. In order to become OSC-certified, VA placed 
informational posters regarding prohibited personnel practices (PPP), 
whistleblowing, and whistleblower retaliation in public settings at VA 
facilities and in VA personnel and equal employment opportunity 
offices; provided and will continue to provide new hires with written 
materials on PPP, whistleblowing, and whistleblower retaliation; 
developed a Web site on PPP and whistleblower rights and protections; 
and developed, in cooperation with the OSC, supervisory training on PPP 
and whistleblower rights and protections. VA executives, managers, and 
supervisors must complete this training on a biennial basis. The VA 
Office of General Counsel (OGC) also developed and presented training 
to VHA senior leadership on PPP and whistleblower rights and 
protections. This training supplemented the mandatory Certification 
Program training. If confirmed, I will work with the appropriate 
organizations within the Department and consult leaders in the Office 
of Special Counsel (OSC) to develop mechanisms to evaluate the 
effectiveness of this training and other Departmental efforts that are 
designed to raise awareness and change behaviors.
    F. It is my understanding that you were involved in VA's efforts to 
reach a settlement with three whistleblowers in Phoenix. Were there any 
lessons learned from those efforts that can be applied more 
universally?
    Response. Yes. The Department reached an agreement with the Special 
Counsel that OGC and OSC would coordinate efforts to expeditiously 
review credible whistleblower retaliation cases and provide ``make-
whole'' relief to the aggrieved whistleblower. Since that time, OGC has 
successfully negotiated corrective action for a number of 
whistleblowers, including three from the Phoenix VA Medical Center. If 
confirmed, I would ensure that this expedited process is fully 
leveraged to provide expeditious remedies to those whistleblowers who 
have suffered retaliation as a result of raising concerns.
                             veterans court
    Question 6.  As you know, one responsibility of the Office of 
General Counsel is to represent VA before the U.S. Court of Appeals for 
Veterans Claims. Many believe that the number of incoming appeals the 
court receives may increase significantly in coming years, as VA 
increases the number of claims it decides at the regional offices and 
as VA's Board of Veterans' Appeals increases the number of decisions it 
is issuing. That would, in turn, increase the workload for the General 
Counsel's office practicing before the court.
    A. Can you commit to us that, if confirmed, you will examine 
whether the Office of General Counsel is positioned to be able to 
handle a potential spike in the number of appeals at the Veterans Court 
in coming years?
    Response. I commit that if confirmed, I will closely examine the 
needs of the Office of General Counsel in meeting this workload. Proper 
resourcing of this activity is critical to meeting the Secretary's 
three strategic goals of restoring trust, improving service delivery 
and setting a path for long term excellence and reform.
    B. Will you get back to us with the results of that review?
    Response. Yes.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Dean Heller to 
  Leigh A. Bradley, Nominee to be General Counsel, U.S. Department of 
                            Veterans Affairs
    Question 8.  The claims backlog is one of my top priorities on this 
Committee because Nevada's veterans continue to have one of the worst 
waits in the Nation.
    The VA's IG released a report this summer that stated that problems 
at the Reno VARO persisted due to lack of leadership and poor 
management. As a result, I called for a change in leadership at the 
Reno VARO and for the director to resign or be fired.
    Almost 6 months later, the Reno VARO has an acting director and no 
certainty from the VA that there will be a new permanent director 
appointed.
    a. Can you shed some light on what could be holding up this process 
and why the VA has not moved forward?
    Response. I am not familiar with the situation at the Reno VARO.

    b. Can I get a commitment that you will look at this issue?
    Response. If confirmed, I will look into the concerns you have 
raised, and if it becomes apparent that the Office of General Counsel 
can, in any way, assist the Veterans Benefits Administration (VBA) in 
resolving the situation, I will ensure that OGC makes it a priority to 
do so.

    Question 9.  a. Since you have been at the VA to assist the 
Secretary over the past few months, have you had a chance to review the 
current appeals process? Do you believe the GAO or the VA should 
conduct a review of the current process to identify inefficiencies?
    Response. My responsibilities during my recent detail to VA did not 
include matters involving the benefits claims process at VBA or the 
Board of Veterans Appeals--I was assigned to work on senior leader 
accountability and whistleblower protection. So I did not have the 
occasion to review the current appeals process, and am not in a 
position to make an informed recommendation as to whether the GAO or VA 
should conduct an assessment of the current process to identify 
inefficiencies. If confirmed, I will explore the scope and findings of 
recent reviews of this process and assess whether a formal review would 
be helpful at this time.
    b. If confirmed, what could you do as General Counsel to speed up 
this process so veterans are not waiting years for a decision on their 
appeal?
    Response. In addition to its core role of providing legal advice to 
program officials and senior VA leaders, the Office of the General 
Counsel can and should leverage its experience to generate business 
ideas designed to expedite and improve service delivery to Veterans. 
This certainly includes the appeals process. If I am confirmed, I will 
ensure that OGC attorneys and other professionals see themselves as 
business partners with their clients and encourage them to focus on 
risk management and process improvements with their clients. Such 
collaborative efforts may generate meaningful ideas for shortening the 
appeals process within existing law and, in some instances, identify a 
need for changes to law or regulations.
    c. Given that more claims are being decided and there will 
ultimately be more appeals at the Board, do you believe there will need 
to be an increase in staffing to handle increases in appeals?
    Response. I have been informed that all available data indicates 
that the rate at which claims are appealed has remained constant. 
Accordingly, the large increase in claims processed by VBA will result 
in a proportional increase of appeals to the Board of Veterans Appeals. 
This will likely cause a proportionate increase in the workload of the 
Federal Courts and the VA Office of the General Counsel in the coming 
years. If confirmed, one of my top priorities will be to examine 
closely the needs of the Office of General Counsel in meeting this 
expanded workload as proper resourcing of this activity is critical to 
meeting the Secretary's three strategic goals of restoring trust, 
improving service delivery and setting a path for long term excellence 
and reform.

    Question 10. a. What can be done by the General Counsel to prevent 
employees from retiring during the 5-day notice period before 
termination?
    Response. It is my understanding that the General Counsel cannot 
affect an employee's right to resign or, if eligible, retire at any 
time. Any Federal employee who is retirement-eligible can apply for and 
receive earned retirement benefits even if he or she is terminated from 
Federal service for poor performance or misconduct. In other words, 
termination from Federal service does not preclude the former employee 
from drawing earned retirement benefits provided the Federal employee 
is retirement eligible (because of age and years of Federal service) 
and has not engaged in a very limited number of the most serious 
criminal acts such as treason, espionage, or terrorism. Thus, 
hypothetically, even if a VA employee were to be summarily fired with 
no notice, provided he or she is eligible to retire, that employee 
could still apply for and draw earned retirement benefits. Please also 
see my response to Question 1C.
    b. Are there specific changes to the process that need action or 
approval from Congress?
    Response. Restricting an employee's right to retire would require a 
statutory change. However, I do not believe additional enhancements are 
needed at this time.

    Question 11.  In 1999, you testified before Congress about how the 
VA handled whistleblowers. Fifteen years later, whistleblower 
protections still remain a serious concern at the VA.
    What can the General Counsel's Office do to give whistleblowers 
greater confidence to come forward without fear of being retaliated 
against?
    Response. Please see my detailed response to Question #2 regarding 
Whistleblower Protections.
                                 ______
                                 
    [The Committee questionnaire for Presidential nominees 
follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                ------                                

    [Letter from the Office of Government Ethics follows:]

   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                                ------                                

    [Letter from the nominee to the Office of General Counsel, 
U.S. Department of Veterans Affairs follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Sanders. Well, it certainly will be entered into 
the record, and we thank you very much for your statement.
    You and I chatted yesterday and you answered my questions. 
I am strongly supportive of the nomination.
    Mr. Isakson.

           OPENING STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Thank you, Chairman Sanders.
    I, too, met yesterday with Ms. Bradley. We had a wonderful 
meeting, and I want the record to reflect that this is one 
Georgia Bulldog who is going to pull for an Alabama ``Roll 
Tide'' Crimson Tide lady in the bowl game coming up pretty 
soon. Good luck this weekend.
    Ms. Bradley. Thank you.
    Senator Isakson. Mr. Chairman, I told Leigh that this is 
probably the most important appointment in the VA other than 
the Secretary himself, and the implementation of the Veterans 
Choice Act is going to require an awful lot of work through 
legal counsel to support the Secretary in whatever disciplinary 
action he takes as well as expedite the review process of cases 
that are appealed, because we are getting more and more 
disability determinations coming out faster and faster, which 
means we are going to have a higher and higher volume of 
appeals, which means legal counsel is going to be under the 
gun. We want to be supportive of you. We want to streamline 
that process as much as possible and make sure it works.
    We have a 2-year window of opportunity to make the VA the 
best VA in the world and we want to make that happen and you 
are a key part of that. I am very supportive of your nomination 
and appreciate your willingness to accept the job. And, I 
really have no questions, Mr. Chairman.
    Chairman Sanders. Thank you very much, Senator Isakson.
    Ms. Bradley, thank you very much for your willingness to 
serve. As Senator Isakson indicated, your position is 
enormously important. There is a transition in the VA right 
now, and I am confident you are going to do a great job for us.
    With that, if there are no other comments--Johnny, are you 
OK?
    Senator Isakson. Just proud to have her on board.
    Chairman Sanders. OK.
    Ms. Bradley. Thank you both.
    Chairman Sanders. This hearing is adjourned.
    [Whereupon, at 10:10 a.m., the Committee was adjourned.]
    
    
    
    
    
    
    
    
    
    
    
    
    

                            A P P E N D I X

                              ----------                              


                Prepared Statement of Hon. Dean Heller, 
                        U.S. Senator from Nevada
    Thank you Chairman Sanders. I want to begin by welcoming Ms. 
Bradley. It is a great honor to serve Veterans, and I look forward to 
hearing about what you plan to bring to the VA.
    It is no secret that the VA has not been working well for veterans, 
and Secretary McDonald is trying to reform this agency. And every 
office has a part to play, including the General Counsel.
    I will tell you, Ms. Bradley, what I have told every VA nominee 
I've met with--My priority is representing Nevada's veterans and what 
is important to them.
    That is why every time you come before this Committee, I will be 
asking about what you are doing in your position to help reduce the 
claims backlog, improve VA health care, and anything else that will 
benefit our Nation's veterans.
    The claims backlog is especially important since Nevada has one of 
the worst VA Regional Offices in the Nation and the highest percentage 
of backlogged claims.
    I know the General Counsel's office has a role in this process at 
the appeals level and accrediting veterans service organizations.
    I am also interested in the VA's handling of whistleblowers and 
what your role in that process might be.
    I want to make sure that, moving forward, every employee working at 
a VA facility in Nevada feels comfortable with reporting problems they 
see without fearing retaliation.
    As a Member of this Committee, I take this oversight seriously and 
want to be assured that you are up for the task.
    Again, thank you for being here and I look forward to addressing 
these issues further in my questioning.
      

                                  [all]
</pre></body></html>
